<html>
<title> - NUCLEAR R&D AND THE IDAHO NATIONAL LABORATORY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                            NUCLEAR R&D AND
                     THE IDAHO NATIONAL LABORATORY

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2004

                               __________

                           Serial No. 108-64

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
94-315                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
RALPH M. HALL, Texas                 JOHN B. LARSON, Connecticut
CURT WELDON, Pennsylvania            NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JERRY F. COSTELLO, Illinois
VERNON J. EHLERS, Michigan           LYNN C. WOOLSEY, California
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       MICHAEL M. HONDA, California
W. TODD AKIN, Missouri               BRAD MILLER, North Carolina
MELISSA A. HART, Pennsylvania        LINCOLN DAVIS, Tennessee
PHIL GINGREY, Georgia                BART GORDON, Tennessee
JO BONNER, Alabama
SHERWOOD L. BOEHLERT, New York
               KEVIN CARROLL Subcommittee Staff Director
         TINA M. KAARSBERG Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                    JENNIFER BARKER Staff Assistant
                   KATHRYN CLAY Chairwoman's Designee


                            C O N T E N T S

                             June 24, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.     8
    Written Statement............................................     9

Statement by Representative John B. Larson, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    11

                               Witnesses:

Mr. William D. Magwood, IV, Director of the Office of Nuclear 
  Energy, Science, and Technology, The Department of Energy
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    16

Dr. Alan E. Waltar, Director of Nuclear Energy, Pacific Northwest 
  National Laboratory
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    29

Dr. Robert L. Long, Nuclear Stewardship, LLC
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    33
    Financial Disclosure.........................................    34

Dr. Andrew C. Klein, Department Head and Professor, Nuclear 
  Engineering and Radiation Health Physics Director, Radiation 
  Center, Oregon State University
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    40

Discussion.......................................................    41

              Appendix: Answers to Post-Hearing Questions

Mr. William D. Magwood, IV, Director of the Office of Nuclear 
  Energy, Science, and Technology, The Department of Energy......    64

 
             NUCLEAR R&D AND THE IDAHO NATIONAL LABORATORY

                              ----------                              


                        THURSDAY, JUNE 24, 2004

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy 
Biggert [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                            Nuclear R&D and

                     the Idaho National Laboratory

                        thursday, june 24, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, June 24, 2004, the Energy Subcommittee of the U.S. 
House of Representatives Committee on Science will hold a hearing to 
examine the Department of Energy's (DOE) plans to establish the Idaho 
National Laboratory (INL) in 2005 as the lead federal laboratory for 
nuclear energy research and development (R&D).

2. Witnesses

Mr. William D. Magwood, IV, is the Director of the Office of Nuclear 
Energy, Science and Technology (NE) at DOE.

Dr. Alan Waltar is the Director of Nuclear Energy at the Pacific 
Northwest National Laboratory (PNNL) and is a past President and Fellow 
of the American Nuclear Society. He participated in the development of 
the report Nuclear Energy: Power for the 21st Century, which was put 
together by seven national laboratories.

Dr. Robert Long is the President of Nuclear Stewardship LLC, a private 
consulting firm. Dr. Long chaired the Infrastructure Task Force of the 
DOE Nuclear Energy Research Advisory Committee (NERAC), which evaluated 
the status of the Idaho laboratory complex and recommended 
improvements.

Dr. Andrew Klein is the Chair of the Nuclear Engineering Department at 
Oregon State University. Dr. Klein currently chairs the NERAC Nuclear 
Laboratory Requirements Subcommittee charged with determining the 
characteristics, capabilities, and attributes of a world-class 
laboratory and making recommendations for building INL into a world 
leader in nuclear energy technology.

3. Overarching Questions

        1.  What are the vision and mission of the newly created Idaho 
        National Laboratory (INL)? Is DOE taking the steps necessary to 
        ensure INL's success?

        2.  How will the reorganization of the Idaho laboratory complex 
        affect DOE's nuclear energy R&D program? What role will other 
        national laboratories with significant nuclear expertise, such 
        as Argonne National Laboratory, play in nuclear energy R&D 
        after INL begins operations?

        3.  Is DOE's nuclear energy program on track to develop the 
        next-generation technologies needed to meet the 
        Administration's goal of an ``expansion of nuclear energy in 
        the United States as a major component of our national energy 
        policy''?

4. Overview

    DOE is undertaking a major reorganization of the national 
laboratory complex in Idaho with the goal of enhancing the focus on 
nuclear energy R&D.
    On April 30, 2003 Secretary Abraham announced that DOE would divide 
the current activities of the Idaho National Engineering and 
Environmental Laboratory (INEEL) into two contracts. One contract would 
cover cleanup of the site, which the Federal Government has used for 
nuclear activities for 55 years. This first contract is designated the 
Idaho Cleanup Project (ICP). The other contract would be for the 
management of a new Idaho National Laboratory that would combine the 
current research activities of INEEL and Argonne National Laboratory-
West (ANL-W), which shares the Idaho site. Under the plan, INL is to be 
the lead laboratory for DOE's nuclear energy R&D activities.\1\ DOE's 
objective is to establish INL as the leading center in the world for 
nuclear energy technology within 10 years.\2\
---------------------------------------------------------------------------
    \1\ Secretary of Energy Spencer Abraham announced a major mission 
realignment for the Idaho National Engineering and Environmental 
Laboratory on July 17, 2002, establishing the site as the Nation's 
leading center of nuclear energy research and development. (DOE Press 
Release No. R-02-144)
    \2\ A February 5, 2004 press release announcing DOE's draft Request 
for Proposals for the Idaho National Laboratory management contract 
states, ``DOE expects that the laboratory will be the world's leading 
nuclear energy technology center within 10 years.'' (DOE Press Release 
No. R-04-023)
---------------------------------------------------------------------------
    DOE issued the final Request for Proposals for the management and 
operations contract for the new Idaho National Laboratory (INL) on May 
26, 2004. The tentative award date for the INL contract is November 15, 
2004, and INL is scheduled to begin operations on February 1, 2005.
    This reorganization will end the 50-year association of ANL-W and 
the main Argonne laboratory, Argonne National Laboratory-East (ANL-E), 
located south of Chicago, IL. It is unclear how the laboratory 
reorganization, and the designation of INL as the lead laboratory for 
nuclear energy research, will affect ANL-E and other national 
laboratories that conduct research related to nuclear energy.
    The Current Idaho Laboratory Complex. The Idaho laboratory 
complex--the term that refers to INEEL and ANL-W--site is 890 square 
miles (roughly 85 percent the size of Rhode Island), most of which is 
open land.
    INEEL includes a cleanup operation involving radioactive materials 
left over from the Cold War, as well as an applied engineering 
laboratory. Currently, environmental management (cleanup) activities 
account for slightly over 70 percent of INEEL program funding. The 
remaining 30 percent of INEEL funding is divided among programs in 
nuclear energy, energy efficiency and renewable energy, fossil energy, 
nuclear nonproliferation and national security. INEEL is operated for 
DOE by Bechtel BWXT Idaho, LLC, and employs about 6,000 people in its 
cleanup and R&D operations.
    The Federal Government originally established the INEEL site as the 
National Reactor Testing Station in 1949. For many years, the Idaho 
site housed the largest concentration of nuclear reactors in the 
world--52 nuclear reactors have been built at the site, including the 
U.S. Navy's first prototype nuclear propulsion system.
    ANL-W, also established in 1949, is a research laboratory focused 
on nuclear safety, treatment of spent nuclear fuel, nonproliferation, 
decommissioning and decontamination technologies, and similar work. The 
University of Chicago has operated both the main laboratory in Illinois 
and the Idaho site from their beginnings. Typically, basic research is 
conducted at the Illinois site, while large-scale nuclear facility 
testing and development is conducted at the Idaho site. ANL-W employs 
about 650 people.

5. Issues

Is DOE allocating sufficient funding to build INL into the world's lead 
        laboratory for nuclear energy R&D?
    The Nuclear Energy Research Advisory Committee (NERAC)--non-
government experts appointed by DOE to give advice on nuclear energy 
R&D--appointed a Task Force, which released a report this April. The 
NERAC Task Force concluded, ``The funding at the Idaho Site, given the 
lead lab status, is clearly insufficient.'' The Task Force also found 
that for the Administration to achieve its goals for nuclear energy, 
``the lead lab site at Idaho requires an immediate and significant 
increase in funding to, e.g., clear up maintenance backlog and make key 
facilities mission ready.'' By contrast, the Administration's fiscal 
year 2005 (FY05) request for nuclear energy R&D at INL is $6 million 
below the FY04 level for INEEL and ANL-W.\3\
---------------------------------------------------------------------------
    \3\ According to the FY05 Energy and Water Appropriations 
Subcommittee report 108-554. The total funding for INEEL is about $840 
million. Total funding for ANL-W is included in the overall ANL budget 
and is not available separately.
---------------------------------------------------------------------------
    DOE has said that more funds will become available for INL as the 
Idaho cleanup work is completed over the next decade. But the NERAC 
Infrastructure Task Force urged DOE not to link INL funding to future 
funding decreases for cleanup for two reasons. First, the cleanup 
effort could go over-schedule or over-budget as it has ``many 
obstacles.'' Second, INL's needs are too immediate to permit a budget 
strategy that ramps up over time.
    In addition, the budget for INL must be sufficient to fund the 
development of the Next Generation Nuclear Plant (NGNP)--discussed more 
below--which DOE's strategic plan describes as being central to the 
lab's new mission. The NGNP is a large, multi-year construction project 
that will cost in excess of $1 billion dollars.
    NERAC is continuing to review DOE's plans for INL. Earlier this 
year, NERAC created a Subcommittee on Nuclear Laboratory Requirements 
to build on the work of the Infrastructure Task Force. The subcommittee 
is charged with identifying the characteristics, capabilities, and 
attributes a world-class nuclear laboratory should possess.

What role will Argonne National Laboratory and other national 
        laboratories with nuclear expertise play in nuclear energy R&D 
        after INL begins operations?
    The NERAC Infrastructure Task Force recommended that DOE's nuclear 
energy R&D program continues to use facilities beyond the Idaho site, 
including other national laboratories.
    About 70 percent of DOE's nuclear energy R&D funds are currently 
spent outside of the Idaho site. Other national laboratories with 
relevant programs include Argonne, Oak Ridge National Laboratory, Los 
Alamos National Laboratory, Lawrence Livermore National Laboratory, 
Pacific Northwest National Laboratory, and Sandia National 
Laboratories.

How should INL balance its role as the lead laboratory for nuclear 
        energy R&D and as a multi-purpose laboratory?
    Members of NERAC have observed that maintaining a world-class 
laboratory requires supporting a sufficiently broad research program, 
including fields outside of traditional nuclear engineering such as 
materials science and computational science. Advantages of maintaining 
a diversity of research include opening up opportunities for cross-
disciplinary research, and creating a greater draw for visiting 
researchers and new employees.
    It remains unclear what balance the new INL will strike between 
nuclear and non-nuclear R&D. ANL-W has been dedicated exclusively to 
nuclear-related R&D throughout its history. DOE has repeatedly stated 
that, like the current INEEL, INL will be a multi-purpose laboratory. 
Yet the current strategic plan for the Idaho site emphasizes the 
laboratory's focus on nuclear-related research.\4\ Clarifying the range 
of research activities appropriate for the new lab will be important to 
INL's long-term success.
---------------------------------------------------------------------------
    \4\ Idaho National Engineering and Environmental Laboratory (INEEL) 
Strategic Plan, January 2003.
---------------------------------------------------------------------------
What are the objectives for the Next Generation Nuclear Power Plant 
        (NGNP)?
    Identifying clear objectives for NGNP will be important to the 
project's success. The NGNP has been described in two potentially 
conflicting ways--on the one hand, as a demonstration of commercial 
viability, and on the other, as a research testbed. A demonstration 
project presumes more mature technology that is unlikely to be further 
upgraded through government work. A testbed would presumably be more 
research oriented with more expensive, leading-edge technologies.
    One of the stated purposes for the NGNP is to produce hydrogen--an 
important part of the Administration's hydrogen initiative. But the 
commercial interest in producing hydrogen through nuclear sources is 
uncertain at best, and the requirement to produce hydrogen 
significantly increases the costs of the reactor and changes its 
design.

6. Background on Nuclear R&D

    Nuclear Industry Overview. With an installed capacity of 98.1 
gigawatts, nuclear power provides 20 percent of the electricity 
generated in the United States. Thirty-one states, including the 
majority of the Eastern half of the country, are home to nuclear power 
plants, with five states--New Jersey, Vermont, New Hampshire, South 
Carolina, and New York--producing more of their electricity from 
nuclear power than any other source, according to the Nuclear Energy 
Institute. Illinois produces one half of its electricity through 
nuclear power.
    The Energy Information Administration (EIA) forecasts that nuclear 
generating capacity will increase slightly by 2025, to 99.6 gigawatts 
installed capacity, due to nuclear plant life extensions and increased 
utilization of existing plants. However, with the May 2001 announcement 
that Federal Government will ``support the expansion of nuclear energy 
in the United States as a major component of our national energy 
policy,'' supporters of nuclear energy project far larger increases for 
nuclear power. Under EIA projections, nuclear generation capacity would 
need to increase by over 60 gigawatts by 2020 to continue to provide 20 
percent of the Nation's electricity. However, a significant expansion 
of nuclear power will require improvements in cost, safety, waste 
management, and proliferation risk.\5\ No new nuclear power plants have 
been ordered since 1977.
---------------------------------------------------------------------------
    \5\ See for example, ``The Future of Nuclear Power, An 
Interdisciplinary MIT Study,'' cited above.
---------------------------------------------------------------------------
    DOE Nuclear Energy R&D Programs. The Administration's FY05 budget 
request for the Office of Nuclear Energy, Science, and Technology was 
$409.6--about $5 million more than the FY04 comparable appropriation. 
Of those amounts, the budget proposes to spend about $97 million on 
R&D--a cut of about $34 million from current spending.
    DOE supports four major programs in nuclear energy R&D: the Nuclear 
Hydrogen Initiative, Advanced Fuel Cycle Initiative, Nuclear Power 
2010, and Generation IV. Each program is described below, along with 
its current year funding and the funding included in Energy and Water 
Appropriations Subcommittee mark for FY05.
    Nuclear energy R&D conducted at the national laboratories is 
allocated from the program lines described below.
Nuclear Hydrogen Initiative (FY04 $6.5 million, E&W Mark $9.0 million)
    The Nuclear Hydrogen Initiative is a program to conduct R&D on how 
to produce hydrogen using nuclear energy.
Advanced Fuel Cycle Initiative (AFCI) (FY04 $67 million, E&W Mark $68 
        million)
    The mission of the AFCI is to develop new ways to treat spent 
nuclear fuel. One goal of the program is to inform a recommendation by 
the Secretary of Energy by 2010 on whether the U.S. needs a second 
nuclear waste repository in addition to Yucca Mountain.
Nuclear Power 2010 (FY04 $19 million, E&W Mark $5 million)
    The Nuclear Power 2010 program is a joint government/industry cost-
shared effort to identify sites for new nuclear power plants, develop 
advanced nuclear plant technologies, evaluate the business case for 
building new nuclear power plants, and demonstrate untested regulatory 
processes. These efforts are designed to pave the way for an industry 
decision by the end of 2005 to order a new nuclear power plant which 
would begin commercial operation early in the next decade.
Generation IV (FY04 $28 million, E&W Mark $40 million)
    The goal of the Generation IV Nuclear Energy Systems Initiative is 
to address the fundamental research and development issues necessary to 
establish the viability of a next-generation nuclear energy system. The 
program is designed to improve safety, sustainability, cost-
effectiveness, and proliferation resistance.

7. Questions to the Witnesses

Questions for Mr. William Magwood, IV
    Your testimony should address the Department of Energy's (DOE) 
plans to reorganize the Idaho laboratory complex to form a new national 
laboratory. Please describe the reasons for designating this newly 
created laboratory as the lead laboratory for nuclear energy research 
and development (R&D). Specifically, please focus your testimony on the 
following questions:

        1.  What is the Department's view of the Report of the 
        Infrastructure Task Force of the Nuclear Energy Research 
        Advisory Committee, particularly its conclusion that, given the 
        lead laboratory status, funding at the Idaho Site is clearly 
        insufficient?

        2.  What role will Argonne National Laboratory and other 
        national laboratories with nuclear expertise play in nuclear 
        energy R&D after the Idaho National Laboratory (INL) is 
        established?

        3.  The Department has indicated that INL will be a multi-
        purpose laboratory, but the current strategic plan for the 
        Idaho National Engineering and Environmental Laboratory 
        emphasizes the laboratory's transition to a focus on nuclear-
        related research. What specific programs do you envision 
        supporting at INL beyond nuclear- and environmental management-
        related research?

        4.  The Next Generation Nuclear Plant (NGNP) has been described 
        both as a demonstration of commercial viability and as a 
        research testbed. What is the Department's view of the purpose 
        of the NGNP? To what extent is the design of the NGNP being 
        influenced by the requirements imposed by hydrogen production? 
        To what extent would INL be capable of world leadership in 
        nuclear energy R&D if the NGNP does not go forward?

Questions for Dr. Alan Waltar
    In your testimony, please briefly outline the conclusions of the 
Seven Lab Action Plan, Nuclear Energy: Power for the 21st Century. 
Please also answer the following questions:

        1.  What should the U.S. goals be in the field of nuclear 
        power? How can the new Idaho National Laboratory best 
        contribute to those goals?

        2.  Are there gaps in the Department's present nuclear energy 
        research and development (R&D) portfolio? Are there current 
        research programs you would recommend discontinuing? If so, 
        please explain your recommended changes.

        3.  The Department is working in partnership with the nuclear 
        power industry to enable a new nuclear plant to be ordered and 
        licensed for deployment within the decade. Is the nuclear 
        energy R&D portfolio adequate to meet this goal? If not, how 
        could this be rectified?

        4.  The Next Generation Nuclear Plant (NGNP) has been described 
        both as a demonstration of commercial viability and as a 
        research testbed. What do you believe the purpose of the NGNP 
        should be? To what extent is the design of the NGNP being 
        influenced by the requirements imposed by hydrogen production? 
        To what extent would INL be capable of world leadership in 
        nuclear energy R&D if the NGNP does not go forward?

Questions for Dr. Robert Long
    In your written testimony, please briefly describe the 
recommendations made by the Nuclear Energy Research Advisory Committee 
Infrastructure Task Force. Please also answer the following questions:

        1.  What role do you recommend that Argonne National Laboratory 
        and other national laboratories with nuclear expertise play in 
        nuclear energy R&D after the Idaho National Laboratory (INL) is 
        established?

        2.  The Department has indicated that INL will be a multi-
        purpose laboratory, but the current strategic plan for the 
        Idaho National Engineering and Environmental Laboratory 
        emphasizes the laboratory's transition to a focus on nuclear 
        related research. What specific programs should the Department 
        support at INL beyond nuclear and environmental management 
        related research?

        3.  The Next Generation Nuclear Plant (NGNP) has been described 
        both as a demonstration of commercial viability and as a 
        research testbed. What do you believe the purpose of the NGNP 
        should be? To what extent is the design of the NGNP being 
        influenced by the requirements imposed by hydrogen production? 
        To what extent would INL be capable of world leadership in 
        nuclear energy R&D if the NGNP does not go forward?

Questions for Dr. Andrew Klein
    In your written testimony, please describe the work of the Nuclear 
Energy Research Advisory Committee subcommittee that you chair, and any 
preliminary recommendations you can make based on the work of the 
subcommittee thus far. Please also answer the following questions:

        1.  What role do you recommend that Argonne National Laboratory 
        and other national laboratories with nuclear expertise play in 
        nuclear energy R&D after the Idaho National Laboratory (INL) is 
        established?

        2.  The Department has indicated that INL will be a multi-
        purpose laboratory, but the current strategic plan for the 
        Idaho National Engineering and Environmental Laboratory 
        emphasizes the laboratory's transition to a focus on nuclear-
        related research. What specific programs should the Department 
        support at INL beyond nuclear- and environmental-management 
        related research?

        3.  The Next Generation Nuclear Plant (NGNP) has been described 
        both as a demonstration of commercial viability and as a 
        research testbed. What do you believe the purpose of the NGNP 
        should be? To what extent is the design of the NGNP being 
        influenced by the requirements imposed by hydrogen production? 
        To what extent would INL be capable of world leadership in 
        nuclear energy R&D if the NGNP does not go forward?
    Chairman Biggert. This hearing will come to order. Good 
morning and welcome, everyone.
    Today's hearing is on the future of nuclear energy R&D and 
the creation of Idaho National Laboratory. On August--or April 
30, 2003, Secretary Abraham announced that the Department of 
Energy would combine the research activities of the Idaho 
National Engineering and Environmental Lab and Argonne National 
Laboratory West to create a new lab, the Idaho National 
Laboratory, or INL. Under the Department's plan, INL will be 
the lead laboratory for DOE's nuclear energy R&D activities. 
The Department hopes to establish INL as the leading center in 
the world for national energy technology within 10 years.
    I support the Department's designation of a leading 
laboratory, but I do have serious concerns about how the 
Department is going about creating this laboratory. 
Specifically, I am concerned about the impact this decision may 
have on existing nuclear R&D programs and facilities, including 
those in Idaho, that have served the Nation well for decades. I 
am also concerned that the Department's decision may sever one 
of the last best teams of nuclear scientists at Argonne 
National Laboratory-East and West. In doing so, the Department 
could end up fracturing the laboratory that has been the 
driving force behind the development of advanced nuclear 
technology for almost 50 years. Time will tell, and much will 
depend on who bids for and is awarded the contract to manage 
this new lab.
    As a lifelong resident of the State of Illinois, which gets 
50 percent of its electricity from nuclear energy, I am a 
strong supporter of nuclear energy, and that is why I am here 
today to ask some tough questions about this new lab. I want to 
make sure it enhances rather than detracts from what I believe 
has been a 50-year success story, namely our nuclear energy R&D 
program.
    There is no denying that the new INL is coming into the 
world with a lot of weight on its shoulders: the Department's 
budget request with decreased funding for nuclear energy R&D 
overall in fiscal year 2005. In fact, nuclear energy R&D at the 
Idaho site itself would decrease by $6 million under the 
Department's proposed budget. The DOE asserts that more funds 
will become available for INL as the Idaho cleanup work is 
completed over the next decade. But the Nuclear Energy Research 
Advisory Committee, called NERAC for short, urged DOE not to 
link INL funding to completion of the cleanup effort for two 
reasons. First, many obstacles to the cleanup remain and could 
cause it to go over schedule or over budget. And second, INL's 
needs are too immediate to permit a budget strategy that ramps 
up over time. The Idaho lab complex is burdened with a backlog 
of needed maintenance work and facility upgrades. NERAC 
estimates that getting the INL mission ready will require 
immediate investments totally over $90 billion--I am sorry, 
that is $90 million. I saw a few eyebrows raise right there. 
And will require additional funding of several million dollars 
each year thereafter.
    The future of INL is, in part, linked to the Next 
Generation Nuclear Power Plant, and we are asking a lot of this 
$1 billion project that is described as research test bed as a 
demonstration of an advanced nuclear design and as a 
demonstration of commercial-scale hydrogen production. We may 
be able to balance all of these elements, but only through 
careful thought and planning.
    The good news is that INL doesn't have to go at it alone. 
The new INL will be the Department of Energy's lead lab for 
nuclear energy R&D, but let us not forget that it will also be 
a member of a team. We have a great deal of nuclear energy 
expertise in residence at other national labs, including 
Argonne, Oak Ridge, and Los Alamos. For the overall nuclear 
energy R&D program to continue to be a success, its lead 
laboratory must succeed, but not at the expense of the 
program's other laboratories.
    As we proceed today, we must keep these questions in mind: 
``Are we doing everything we can to ensure the success of our 
nuclear energy R&D program? And are we putting the resources of 
all of our national laboratories to the best possible use?''
    I believe nuclear energy is at a crossroads; the choices we 
make today about our nuclear energy R&D investments may 
determine whether or not nuclear power is a viable option for 
the rest of the 21st century. It is important that we get this 
right.
    [The prepared statement of Chairman Biggert follows:]
              Prepared Statement of Chairman Judy Biggert
    The hearing will come to order.
    Good morning, and welcome, everyone.
    Today's hearing is on the future of nuclear energy R&D and the 
creation of the Idaho National Laboratory. On April 30, 2003, Secretary 
Abraham announced that the Department of Energy (DOE) would combine the 
research activities of the Idaho National Engineering and Environmental 
Laboratory and Argonne National Laboratory-West to create a new lab, 
the Idaho National Laboratory, or INL.
    Under the Department's plan, INL will be the lead laboratory for 
DOE's nuclear energy R&D activities. The Department hopes to establish 
INL as the leading center in the world for nuclear energy technology 
within 10 years.
    I support the Department's designation of a lead laboratory, but I 
have serious concerns about how the Department is going about creating 
this laboratory. Specifically, I am concerned about the impact this 
decision may have on existing nuclear R&D programs and facilities, 
including those in Idaho, that have served the Nation well for decades.
    I also am concerned that the Department's decision may sever one of 
the last, best teams of nuclear scientists at Argonne National 
Laboratory, East and West. In doing so, the Department could well 
fracture a laboratory that has been the driving force behind the 
development of advanced nuclear technologies for almost 50 years. Time 
will tell, and much will depend on who bids for and is awarded the 
contract to manage this new lab.
    As a life-long resident of the State of Illinois, which gets fifty 
percent of its electricity from nuclear energy, I'm a strong supporter 
of nuclear energy. And that's why I'm here today to ask some tough 
questions about this new laboratory. I want to make sure it enhances 
rather than detracts from what I believe has been a 50-year success 
story, namely our nuclear energy R&D program.
    There is no denying that the new INL is coming into the world with 
a lot of weight on its shoulders. The Department's budget request would 
decrease funding for nuclear energy R&D overall in FY05. In fact, 
nuclear energy R&D at the Idaho site itself would decrease by $6 
million under the Department's proposed budget.
    The DOE asserts that more funds will become available for INL as 
the Idaho cleanup work is completed over the next decade. But the 
Nuclear Energy Research Advisory Committee, called NERAC for short, 
urged DOE not to link INL funding to completion of the cleanup effort 
for two reasons. First, there are many remaining obstacles to the 
cleanup effort that could cause it to go over-schedule or over-budget.
    Second, INL's needs are too immediate to permit a budget strategy 
that ramps up over time. The Idaho lab complex is burdened with a 
backlog of needed maintenance work and facility upgrades. NERAC 
estimates that getting INL mission-ready will require immediate 
investments totaling over $90 million, and will require additional 
funding of several million dollars each year thereafter.
    The future of INL is, in part, linked to the Next Generation 
Nuclear Power Plant, or NGNP. We're asking a lot of this $1 billion 
project. It's described as a research test-bed, as a demonstration of 
an advanced reactor design, and as a demonstration of commercial-scale 
hydrogen production. We may be able to balance all of these elements, 
but only through careful thought and planning.
    The good news is that INL doesn't have to go it alone. The new INL 
will be the Department of Energy's lead lab for nuclear energy R&D, but 
let's not forget that it will also be a member of a team. We have a 
great deal of nuclear energy expertise in residence at other national 
labs, including Argonne, Oak Ridge, and Los Alamos. For the overall 
nuclear energy R&D program to continue to be a success, its lead 
laboratory must succeed, but not at the expense of the program's other 
laboratories.
    As we proceed today, we must keep these questions in mind: Are we 
doing everything we can to ensure the success of our nuclear energy R&D 
program? And are we putting the resources at all our national 
laboratories to the best possible use?
    I believe nuclear energy is at a crossroads. The choices we make 
today about our nuclear energy R&D investments may determine whether or 
not nuclear power is a viable option for the rest of the 21st century. 
It's important that we get this right.

    Chairman Biggert. I will now turn to the Ranking Member of 
the Energy Subcommittee for his opening statement.
    Mr. Larson. Thank you, Madame Chair. And let me associate 
myself with your remarks and acknowledge that today we are 
addressing an issue of importance to a wide range of interests. 
The Department of Energy has a vision for nuclear energy 
research and the future of the Idaho site.
    If all goes as planned by the Administration, we may see 
significant changes, not only in Idaho, but throughout the 
national laboratory complex. Understandably, labs such as Los 
Alamos, Oak Ridge, and Argonne are very concerned about the 
impacts in making the Idaho laboratory the flagship facility 
for nuclear energy research. Idaho has a long history of 
valuable nuclear research, but it is not the only site for this 
work, and we should be careful in consolidating all of our 
research into one place. One observer noted that this is 
``analogous to closing down all university nuclear engineering 
departments and consolidating them into a single university''. 
It simply is not practical nor is it wise. Sources tell us that 
there are a number of vital programs at other labs that the 
Idaho lab is not equipped to handle. Upgrading facilities at 
Idaho to accomplish--to accommodate this work would have costs 
well above the projected budget. In these cases, it only makes 
sense to leave such programs where they are.
    We will be paying close attention to the Department as it 
executes its plans for the Next Generation Power Reactor. If 
production of hydrogen is such an important part of this 
project and the President is serious about his vision for a 
hydrogen economy, it would only make sense that we include 
domestic hydrogen industries in the demonstration of these 
technologies. This can be said for other components of the 
project as well. Large projects such as this are too costly to 
have the benefits fall into the hands of foreign companies.
    While I have reservations, I am not opposed to the creation 
of the Idaho National Laboratory, and I commend the 
Department's efforts in making it a world-class facility. On 
the surface, there is some wisdom in the idea of moving nuclear 
energy research to a remote region of Idaho, but given the 
limited budget for nuclear research at DOE, we are concerned 
the Department will dip into resources of other labs to fund 
work at Idaho instead of leveraging their key capabilities and 
expertise. Labs should partner with other laboratories and 
universities to make their vision for Idaho work. Research in 
advanced nuclear power systems is beyond the scope of any one 
laboratory. Idaho has a long history of research in nuclear 
energy, but it is not the only site to conduct this research, 
and nor should it be.
    Thank you, Madame Chair, and I yield back the remainder of 
my time.
    [The prepared statement of Mr. Larson follows:]

          Prepared Statement of Representative John B. Larson

    Thank you Madame Chair.
    Today we are addressing an issue of importance to a wide range of 
interests. The Department of Energy has a vision for nuclear energy 
research and the future of the Idaho site. If all goes as planned by 
the Administration, we may see significant changes not only in Idaho, 
but throughout the national laboratory complex.
    Understandably, labs such as Los Alamos, Oak Ridge and Argonne are 
very concerned about the impacts of making the Idaho National 
Laboratory the flagship facility for nuclear energy research.
    Idaho has a long history of valuable nuclear research. But it is 
not the only site for this work and we should be careful in 
consolidating all of our research into one place. One observer said 
that this is analogous to closing down all university nuclear 
engineering departments and consolidating them at a single university. 
It simply is not practical or wise.
    Sources tell us that there are a number of vital programs at other 
labs that the Idaho lab is not equipped to handle. Upgrading facilities 
at Idaho to accommodate this work would have costs well above the 
projected budget. In these cases, it only makes sense to leave such 
programs where they are.
    We will be paying close attention to the Department as it executes 
its plans for the next generation power reactor. If production of 
hydrogen is such an important part of this project, and the President 
is serious about his vision for a hydrogen economy, it would only make 
sense that we include domestic hydrogen industries in the demonstration 
of these technologies.
    This can be said for other components of the project, as well. 
Large projects such as this are too costly to have the benefits fall 
into the hands of foreign companies.
    For the most part, I am not opposed to the creation of the Idaho 
National Laboratory and I commend the Department's efforts in making it 
a world class facility. On the surface, there is some wisdom in the 
idea of moving nuclear energy research to a remote region of Idaho.
    But, given the limited budget for nuclear research at DOE, we are 
concerned that the Department will dip into resources of other labs to 
fund work at Idaho, instead of leveraging their key capabilities and 
expertise. The lab should partner with other laboratories and 
universities to make their vision for Idaho work.
    Research in advanced nuclear power systems is beyond the scope of 
any one laboratory. Idaho has a long history of research in nuclear 
energy. But it is not the only site to conduct this research, and nor 
should it be.
    Thank you, Madame Chair. I yield back the remainder of my time.

    Chairman Biggert. Thank you, Mr. Larson. I would like, at 
this time, to ask unanimous consent that all Members who wish 
to do so have their opening statements entered into the record 
and that all written testimony submitted by the witnesses be 
placed in the record. Without objection, so ordered.
    It is my pleasure to welcome our witnesses for today's 
hearing and to introduce them to you. They are Mr. William D. 
Magwood, IV, Director of the Office of Nuclear Energy Science 
and Technology at the Department of Energy, and Dr. Alan 
Waltar, Director of Nuclear Energy at the Pacific Northwest 
National Laboratory and past president of the American Nuclear 
Society. Welcome. Dr. Robert Long, President of Nuclear 
Stewardship, LLC, a private consulting firm. Dr. Long chaired 
the Infrastructure Task Force of the DOE Nuclear Energy 
Research Advisory Committee, or NERAC, which evaluated the 
status of the Idaho laboratory complex and recommended 
improvements. And last but not least, Dr. Andrew Klein, head of 
the Nuclear Engineering Department at Oregon State University. 
Dr. Klein currently chairs the NERAC subcommittee charged with 
determining the characteristics, capabilities, and attributes 
of a world-class laboratory and making recommendations for 
building INL into a world leader in nuclear energy technology. 
I thank each of you for joining us today. And as the witnesses 
know, spoken testimony will be limited to five minutes each, 
after which the Members will have five minutes each to ask 
questions.
    And we will begin with Mr. Magwood.

STATEMENT OF MR. WILLIAM D. MAGWOOD, IV, DIRECTOR OF THE OFFICE 
 OF NUCLEAR ENERGY, SCIENCE AND TECHNOLOGY, THE DEPARTMENT OF 
                             ENERGY

    Mr. Magwood. Thank you, Chairman.
    Chairman, Mr. Larson, Members of the Subcommittee, I am 
Bill Magwood. I am Director of DOE's Office of Nuclear Energy 
Science and Technology, and it is a great pleasure to appear 
before this subcommittee again to discuss our plans for nuclear 
research and for the development of the Idaho National 
Laboratory.
    As outlined in the National Energy Policy, which was issued 
shortly after President Bush took office, this Administration 
is vitally interested in the continuing role of nuclear energy 
in this country and in the expansion as an important component 
of our energy resources. Over the last three years, we have 
advanced the agenda for nuclear energy research and development 
in several significant ways that reflect the focus and 
commitment of our Department in this important energy resource. 
Our efforts have gained momentum, and continue to do so, with 
each passing week, and we are confident about the agenda that 
we have established.
    We have not done this alone. All of our programs are 
characterized by a high degree of oversight and peer review 
from independent sources. The Nuclear Energy Research Advisory 
Committee, or NERAC, has eight active subcommittees that 
interact with my office to pursue our nuclear energy agenda and 
has made a very real and substantial difference in the 
development of our programs. I am pleased to appear today with 
two members of that body, Dr. Long and Dr. Klein, both of whom 
have led important subcommittees, some of which you will hear 
about today.
    We have also worked hard to bring an international 
characteristic to all of our programs. We established a 
Generation IV International Forum, a collective of ten 
countries working together to advance nuclear technology with 
this in mind. That group, in coordination with NERAC, had led 
the evaluation over 100 different nuclear energy concepts from 
all over the world by over 100 scientists from all over the 
world to determine the most promising technologies for the 
future. After a complex, carefully managed two-year process, 
the Generation IV International Forum concluded that six 
concepts held the most promise for the future, and a number of 
countries have agreed on a framework to allow the countries to 
work together to develop these technologies.
    For our part, we have already indicated in a report to 
Congress last year that the Department of Energy has selected 
one technology as its lead technology in Generation IV. This 
technology is now known as the Next Generation Nuclear Power 
Plant. The base concept of the Next Generation Nuclear Plant, 
or NGNP, is that of a very high temperature, gas cooled reactor 
system with an advanced high efficiency turbine generator and 
an even more advanced thermal chemical hydrogen production 
system. We have very high expectations for this technology.
    Pursuant to this, the Department recently published a draft 
strategy for proceeding with the construction of the NGNP pilot 
plan. We are holding a public meeting tomorrow at the eight 
headquarters to respond to questions about this proposed 
strategy, and I invite you to have your staff attend that, and 
we look forward to answering any questions they may have as 
well. We have asked the U.S. private sector, which we have 
asked to take a lead on this project, to submit comments on the 
strategy by July 2. We will use this input to support the 
consideration of a mission need analysis for this project under 
the Department's highly disciplined project management process.
    But let me be clear, DOE has not made a final decision in 
constructing an NGNP at this point. However, should the 
decision be made to proceed with the facility, it is our intent 
that the new Idaho National Laboratory would play a central 
role in the project by supporting all of the technical 
evaluation and research and development needs for the project. 
In doing so, the INL would attract many new talented scientists 
and engineers, establish strong ties with industry, academia, 
and the international community, and become involved in other 
ways, which will set it on a path to establish it as a pre-
eminent nuclear energy research laboratory in the world in a 
10-year period.
    As Secretary Abraham has called the command center of a 
revived nuclear technology education and research enterprise in 
this country, the new lab will become a vital part to the 
Department in realizing our vision for nuclear energy. As such, 
it can not be the only location where vital nuclear energy 
research is performed. We expect that, as a command center for 
nuclear energy, the INL will form close and productive 
relationships with other national laboratories, particularly 
those where important, irreplaceable expertise and capabilities 
exist today. We fully expect the labs, such as Argonne, Oak 
Ridge, Los Alamos, and Sandia will remain important 
contributors to the Department's nuclear energy R&D efforts. We 
do not anticipate the consolidation of all programs into the 
Idaho laboratory. What we do anticipate is that Idaho will be 
at the leading edge of new programs that we develop.
    For nuclear energy to have missions, we have asked NERAC to 
evaluate the assets in Idaho and recommend to us the 
improvements it believes we should make, not just in the 
facilities and equipment, but also in less tangible areas, such 
as personnel development and incentives to develop a laboratory 
culture. We look forward to receiving their recommendations 
later this year. In the interim, we continue to plan for the 
maintenance of the existing facilities at INL and consider new 
investments in infrastructure, and we have developed a 10-year 
site plan to focus our efforts to assure that we have a long-
term planning basis.
    In summary, we believe that by returning the Idaho lab to 
its roots, we are creating a much-needed focal point for the 
nuclear energy R&D program in this country. As demonstrated by 
the stockpile stewardship program, the renewable energy 
program, and others, a complex research program can benefit 
from the contributions of many organizations, but at its core, 
it needs a small number of institutions that are focused in 
making that program a success. For nuclear technology, we 
believe the Idaho lab is the right place to focus our efforts, 
and that renewed focus will give a boost to nuclear energy R&D 
across the country.
    Thank you for holding this hearing, and thank you for the 
opportunity to appear today, and I look forward to answering 
any questions you have.
    Thank you.
    [The prepared statement of Mr. Magwood follows:]

              Prepared Statement of William D. Magwood, IV

    Chairman Biggert and Members of the Subcommittee, I am William D. 
Magwood, IV, Director of the DOE Office of Nuclear Energy, Science and 
Technology. It is a pleasure to appear here today to discuss our views 
of the future of nuclear energy research and development and the 
important role the new Idaho National Laboratory will play in meeting 
our research objectives. As outlined in the National Energy Policy 
issued shortly after President Bush took office, this Administration is 
vitally interested in continuing the development of nuclear energy and 
expanding its use in the U.S.
    Over the last three years, we have advanced the agenda for nuclear 
energy and nuclear research in several significant ways that reflect 
the focus and commitment the Department has placed on this important 
energy source. We have established strong cooperation with industry 
through our Nuclear Power 2010 program, working with utilities to 
examine the potential of ordering new nuclear power plants for 
operation in the United States within the next few years. We have 
developed new, important technology in the Advanced Fuel Cycle 
Initiative, pointing the way toward a better, more proliferation-
resistant nuclear fuel cycle. We have established the Generation IV 
International Forum, working with the world's advanced nuclear 
technology nations to identify and develop the most promising next 
generation nuclear energy technologies for the future.
    Our nuclear energy research programs are highly integrated and 
interdependent. Our Generation IV activities, for example, rely on 
success in the Advanced Fuel Cycle Initiative to create the advanced 
nuclear fuels for most of the six next-generation nuclear energy system 
concepts. Our Nuclear Hydrogen Initiative is dependent upon the success 
of the Generation IV effort to create the reactor technologies that can 
supply the very high temperature heat needed to make hydrogen 
production economic and practical on a commercial scale. This 
integration can be difficult from a management perspective, but highly 
beneficial from both a results and an efficiency standpoint. While each 
program has its own goals and objectives, our success will be greatly 
magnified when the products of each program are brought together at the 
end.
    All of our programs are characterized by a high degree of 
independent oversight and peer review. The Nuclear Energy Research 
Advisory Committee (NERAC) has eight active subcommittees interacting 
with my Office to pursue our nuclear energy R&D goals. Under the 
leadership of the Chair, former Deputy Secretary of Energy Bill Martin, 
and the Vice Chair, former Nuclear Regulatory Commission Chairman John 
Ahearne, NERAC is one of the most active, engaged, and committed 
advisory bodies in existence and the time and effort the members of 
this group have devoted to their advisory role has made a very real and 
substantial difference in the development of our programs.
    All of our programs benefit from a philosophy that to be 
successful, the next generation of nuclear technologies must not be 
used just in the United States, or just in Japan, or just in France--
but used internationally in a standardized fashion. We often consider 
the aircraft industry to be a good model. Just as it would not be 
economically viable to build one or two airliners in each country using 
unique designs, it will not economically viable to do so with future 
nuclear power plants. Instead, like the case of airliners, we must 
benefit from coordinated worldwide efforts and acceptability of a few 
technologies in many countries. In this way, the market for future 
plants is large, as are the economies of manufacturing scale.
    Because of this view, we have worked hard to bring an international 
character to all of our programs. We established the Generation IV 
International Forum, or GIF, with this in mind. That group, in 
coordination with NERAC, led the evaluation of over 100 different 
nuclear energy concepts by over 100 expert scientists and engineering 
from over a dozen countries. After a complex, carefully managed two 
year process, the GIF concluded that six technology concepts held the 
most promise for the future and the GIF member countries agreed to 
establish an international framework to allow all countries to work on 
the technologies of greatest interest to them in direct partnership 
with other member countries.
    For our part, as we indicated in our report to Congress last year 
on the U.S. Generation IV program, the Department of Energy has 
selected one of the six technologies as its lead technology. This 
technology is now known as the Next Generation Nuclear Plant, or NGNP. 
The NGNP would be able to make both electricity and hydrogen at very 
high levels of efficiency; would be deployable in modules that will 
better fit the high competitive, deregulated market environment in the 
United States; and would be extraordinarily safe, proliferation-
resistant, and waste-minimizing.
    The base concept of the NGNP is that of a very-high temperature 
gas-cooled reactor system coupled with an advanced, high-efficiency 
turbine generator and even more advanced thermochemical hydrogen 
production system. We have very high expectations for this technology. 
As we indicated in our recent request for Expressions of Interest 
(EOI), we are interested in the eventual deployment of commercial 
plants that can generate electric power at a cost of less than 1.5 
cents/kilowatt hour; produce hydrogen at a cost of less than $1.50/
gallon-gasoline equivalent; and cost less than $1000/kilowatt to 
construct with a goal of $500/kilowatt.
    If we are successful in creating such a technology, we will change 
the game with respect to the energy and environment future of the 
United States. We will not only assure a vibrant, long-term future for 
nuclear energy that will allow the Nation to benefit from nuclear 
energy's enviable environmental qualities, but we will expand its 
advantages from electricity production to fueling the Nation's vast 
transportation system. In doing so, we will enable the President's 
vision, as articulated in his Hydrogen Fuel Initiative, to be realized 
far earlier than many thought possible.
    The Department is working with its international partners to define 
the research and development activities that could enable an NGNP to be 
demonstrated in pilot form before 2020. We have asked the U.S. private 
sector to submit comments on the NGNP strategy by July 2 of this year, 
as well as to indicate their potential interest in serving as the 
Project Integrator.
    As noted in the Request for Expressions of Interest, DOE has not 
made a final decision to construct a NGNP facility. And, although it 
might be reasonable to infer that should such a decision be made, the 
NGNP would be located at INL, we have not made a final site selection, 
nor have we secured the required out-year funding. However, the 
Department intends that the INL would play a central role throughout 
the NGNP effort. Should the decision be made to build an NGNP pilot 
plant, it would be our preferred path to build the facility under a 
cooperative arrangement with the private sector. We believe that such a 
project should be, first and foremost, focused on the development of a 
technology that can be deployed by the private sector sometime after 
2020. Such a technology must be flexible, safe, reliable, and 
consistent with the economic realities of the market (with or without 
the advent of a ``hydrogen economy'').
    Our EOI noted that one management and funding option the Department 
is considering is to work with a Project Integrator to pursue this 
technology. This entity would work closely with the INL to develop and 
manage research and development plans. In doing so, the INL would 
attract many new talented scientists and engineers; establish strong 
ties with industry, academia, and the international community; and 
evolve in other ways which will set it on the path to establish the 
Nation's pre-eminent laboratory for nuclear energy research in 10 
years.
    This goal is the central objective we have set for the new M&O 
contractor for the Idaho National Laboratory. The new contractor will 
have the task of merging the lab operations of Argonne National 
Laboratory-West and Idaho National Engineering and Environment 
Laboratory to create a new, multi-program national laboratory that will 
serve as what Secretary Abraham called the ``command center'' of a 
revived nuclear technology, education, and research enterprise in this 
country.
    In this role, the new lab will become a vital partner to the 
Department of Energy in realizing the vision for nuclear energy we have 
been developing over the last several years. As such, it cannot be the 
only location where vital nuclear energy research is performed. We 
expect that as the ``command center'' for the nuclear energy program, 
the INL will form close and productive relationships with other 
national laboratories--particularly those where important, 
irreplaceable expertise and capabilities exist today. In particular, 
Argonne National Laboratory (with its unique expertise in reactor 
analysis, reactor safety, physics and computer codes); Oak Ridge 
National Laboratory (which has great expertise in materials and 
chemical processes); Los Alamos National Laboratory (which has some the 
Department's finest advanced nuclear fuel technology capabilities); and 
Sandia National Laboratories (which has outstanding energy conversion, 
systems engineering, and nonproliferation expertise) will all be 
important contributors to all of the Department's major nuclear energy 
R&D efforts. To facilitate this, DOE has established a program 
management structure that includes National Technical Directors and 
System Integrators, many of whom are based at DOE laboratories outside 
of Idaho. This program management structure will help ensure that the 
best technical talent is brought to bear on DOE's nuclear energy R&D 
programs, no matter where that talent may reside.
    The designation of the INL as the leader for nuclear R&D is 
consistent with the lab's historic role as the focal point for the 
development of commercial nuclear power in the world. The first usable 
quantities of electricity produced by nuclear power occurred at what 
was then known as the National Reactor Testing Station in Idaho. The 
first city lighted by nuclear power was Arco, Idaho, using power from a 
reactor at this facility. Fifty-two reactors have been built and 
operated in Idaho over the years, the largest concentration in the 
world.
    Beyond nuclear energy research, we envision the INL becoming a 
multi-program laboratory, with a broad and varied portfolio of work. We 
believe that a diverse scope of work activities would provide a sound 
intellectual basis for the lab and help attract the wide range of 
expert researchers and technologists from many disciplines that will be 
needed to allow us to reach our ambitious nuclear energy goals. In 
addition to its nuclear energy role, the request for proposals 
indicates that the new INL M&O contractor will:

        <bullet>  Consolidate at the INL the ability to fabricate, test 
        and assemble plutonium238 power systems needed for both 
        national security and space exploration;

        <bullet>  Establish a Center for Advanced Energy Studies in 
        Idaho Falls, Idaho, in which the INL, Idaho and other regional 
        and national universities cooperate to conduct on-site 
        research, classroom instruction, technical conferences and 
        other events for a world-class academic and research 
        institution;

        <bullet>  Be a lead science and technology provider in nuclear 
        nonproliferation and counter proliferation, and become the 
        Nation's leader in developing science-based, technical 
        solutions protecting the country's critical infrastructure; and

        <bullet>  Research, develop and deploy technologies that 
        improve the efficiency, cost effectiveness and environmental 
        impacts of systems that generate, transmit, distribute and 
        store electricity and fuels.

    For the nuclear energy and other missions, we have asked the 
Nuclear Energy Research Advisory Committee to evaluate the assets in 
Idaho and to recommend to us improvements it believes we should make 
not just in facilities and equipment, but also in less tangible areas, 
such as personnel development and incentives and laboratory culture. We 
look forward to receiving their recommendations later this year. In the 
interim, we continue to plan for the maintenance of the existing 
facilities at INL and consider new investments in the infrastructure.
    In summary, we believe that by returning the Idaho lab to its 
roots, we are creating a much-needed focal point for the nuclear energy 
R&D program in this country. As demonstrated by the stockpile 
stewardship program, the renewable energy program, and others, a large 
research program can benefit from the contributions of many 
organizations, but at its core needs a small number of institutions 
that are focused on making that program a success. We believe that the 
Idaho lab is the right place for this focus to occur, and that a 
renewed focus will give a boost to nuclear energy R&D across the U.S.
    Thank you for the opportunity to appear before you today, and I 
look forward to answering any questions you may have.

                  Biography for William D. Magwood, IV

    William D. Magwood, IV is the Director of the Office of Nuclear 
Energy, Science and Technology in the U.S. Department of Energy. He was 
appointed to this position on November 8, 1998.
    As the Director of Nuclear Energy, Science and Technology, Mr. 
Magwood is the senior nuclear technology official in the United States 
Government and the senior manager for all of the Office's programs. 
Under Mr. Magwood's leadership, the Office of Nuclear Energy, Science 
and Technology has led the Nation in a new consideration of nuclear 
technology as a means to address difficult problems facing the Nation 
in the 21st Century.
    Mr. Magwood is leading the Department's Nuclear Power 2010 
initiative, aimed at building new nuclear plants in the U.S. by 2010 as 
a key to long-term energy security. He is also leading the Generation 
IV initiative, working closely with the Generation IV International 
Forum--an international collective of 10 leading nations and the 
European Union's Euratom--dedicated to development of next generation 
advanced nuclear energy technologies.
    Under the direction of Mr. Magwood, the office has reasserted a 
leading role for the United States in the international discussion 
regarding the future use of nuclear power technology to generate secure 
supplies of energy without emitting air pollutants that can damage the 
environment, both regionally and globally. His contributions to the 
advancement of nuclear technology have been recognized internationally; 
in 2003, he was elected Chairman of both the Generation IV 
International Forum and the Paris-based OECD Steering Committee on 
Nuclear Energy.
    Prior to assuming his current position, Mr. Magwood served as the 
Associate Director for Technology and Program Planning in the Office of 
Nuclear Energy, Science and Technology for four years. He also served 
as the Executive Secretary of the interagency Highly Enriched Uranium 
Oversight Committee.
    From 1984-1994, Mr. Magwood held technology management positions 
with two energy-related organizations. He managed electric utility 
research and nuclear policy programs at the Edison Electric Institute, 
Washington, DC; and he was a scientist at Westinghouse Electric 
Corporation, Pittsburgh, Pennsylvania, where he analyzed radiological 
and hazardous waste disposal, treatment, and handling systems, and 
provided technical support to nuclear fuel marketing efforts.
    Mr. Magwood holds a B.S. degree in Physics, and a B.A. degree in 
English from Carnegie-Mellon University. He also holds an M.F.A. degree 
from the University of Pittsburgh.

    Chairman Biggert. Thank you very much.
    Dr. Waltar, you are recognized for five minutes. If you--I 
think your mic is not on.
    Dr. Waltar. All right.
    Chairman Biggert. Yeah. Thank you.

 STATEMENT OF DR. ALAN E. WALTAR, DIRECTOR OF NUCLEAR ENERGY, 
             PACIFIC NORTHWEST NATIONAL LABORATORY

    Dr. Waltar. Well, my name is Alan Waltar. I am Director of 
Nuclear Energy at Pacific Northwest National Laboratory and an 
employee of Batelle, which operates PNNL for the Department of 
Energy. I mention this up front, because Batelle is leading a 
team to bid on the INL contract, however, my testimony is based 
almost exclusively on my nearly four years--four decades of 
activity in the nuclear profession, largely uncoupled with 
Batelle. And further, I am not a member of the Batelle team 
working on the bid proposal. Rather, I come to you having 
formerly served as professor and Head of the Department of 
Nuclear Engineering in Texas A&M, and prior to that, 25 years 
with Westinghouse Hanford Company in roles associated with 
advanced reactor design and operation. As you mention, I also 
had the privilege of serving as President of the American 
Nuclear Society, an experience that allowed me to become aware 
of the vital global contributions that nuclear energy, when 
properly developed and managed, can make to the advancement of 
a civilization.
    Because of time constraints, I plan to stress in my oral 
presentation the major driving forces that justify, in my mind, 
the creation of the new Idaho National Laboratory, and I have 
included responses to the questions in the written testimony.
    Access to abundant and affordable supplies of energy is 
crucial to development, and is the driving force behind our 
economy and our national security. Now given this reality, when 
a large and growing portion of our energy supply is embedded in 
unstable regions of the world, a monumental price must be paid, 
monetarily, politically, and yes, even militarily. Even more 
sobering, nations without access to adequate energy supplies 
remain chronically underdeveloped, thereby providing the 
breeding grounds for terrorism to fester and grow in 
retaliation to the wealthy of the world. Finally, there is 
mounting evidence that in our quest for additional energy 
supplies we need to significantly reduce the emission of 
greenhouse gases that contribute to global warming.
    So in response to this situation, I believe the United 
States must: number one, drastically reduce its dependence on 
foreign oil, particularly the Middle East; two, develop 
domestic energy sources capable of sustainable development that 
are consistent with environmental stewardship; and three, work 
to substantially reduce the stark differences in quality of 
life among the peoples of the world.
    In my judgment, the only source of energy capable of 
credibly responding to the situation, in the time frame we 
have, is nuclear energy. True, essentially all sources of 
energy will be needed, but it is only wishful thinking to 
assume that the growth in our longer-term worldwide energy 
requirements can be provided by a combination of conservation, 
fossil fuels, and renewables. It simply can not be done.
    It is within this context that I welcome the potential for 
adopting a national energy policy that embraces new major 
commitment to the development of nuclear energy. I am likewise 
pleased that the Department of Energy has designated the new 
Idaho National Laboratory to be the focal point for advanced 
reactor and fuel cycle development. This is the site where over 
50 new reactor concepts were built and tested. These 
developments provide a signal that our Nation recognizes the 
steps necessary to provide the global leadership needed to 
enable nuclear technology to play the role that only it can 
play.
    However, it is also my judgment that this new commitment 
can succeed only if the following support is provided. Number 
one, a substantial increase in sustained funding. Benefits to 
be derived from a robust commitment to advanced nuclear science 
and engineering, including the Next Generation Nuclear Power 
Plant as a central focus, are enormous. The higher efficiencies 
projected from this reactor for both the production of 
electricity and hydrogen, a key new energy carrier to replace 
petroleum transportation, are essential components of a 
successful energy policy. Attaining a capability where advanced 
nuclear science is balanced with other energy sources justifies 
an annual commitment in the range of $300 million to $500 
million over the next few years, as noted in the April 2003 six 
laboratory group plan entitled ``Nuclear Energy: Power for the 
21st Century.'' And that is attached to my written testimony.
    Two, whereas the focus of the project should be at INL, I 
would recommend that full advantage be taken of the six 
laboratory directors' report, which represents a solid 
commitment from the directors of key national laboratories to 
fully integrate the technical resources, that is the staff and 
facilities, required to assure success in restoring U.S. 
leadership in nuclear technologies. These six labs, which have 
been expanded to seven, represent the core of our government-
owned nuclear capabilities currently existing in our Nation. 
These laboratories, partnered with private industry and the 
U.S. academic community, provide enormous potential for 
success.
    And three, by combining the two complementary capabilities 
of INL and Argonne West into one integrated laboratory with a 
clear charter and the sustained support, a truly world-class 
national laboratory can be created, capable of attracting both 
onsite talent and engaging the talent remaining at the other 
national laboratories, academic institutions, and private 
industry to fully integrate the programs needed to assure the 
U.S. with the energy source so vital to our future.
    By integrating the current Gen-IV, Advanced Fuel Cycle 
Initiative, and Nuclear Hydrogen Initiative into a coherent 
effort focused at INL but utilizing the best talent the Nation 
has to offer, the U.S. can, indeed, lead the world in 
developing the next generation of nuclear power plants, 
including the fuel cycles necessary to minimize reactor waste.
    And finally, as a former educator, I wish to stress how 
important it is for our Nation to build new nuclear facilities 
and support new nuclear research programs to attract and employ 
the best students that our universities can supply in the 
nuclear discipline. A combination of new, exciting projects, 
along with direct university support, is vital in ensuring an 
adequate supply of next generation, well-educated professionals 
in this important field.
    Thank you very much.
    [The prepared statement of Dr. Waltar follows:]

                  Prepared Statement of Alan E. Waltar

Madame Chairman and distinguished Members,

    My name is Alan Waltar. I am Director of Nuclear Energy at the 
Pacific Northwest National Laboratory and an employee of Battelle, 
which operates PNNL for the Department of Energy. I mention this up 
front, since Battelle is leading a team to bid on the new INL contract. 
However my testimony is based almost exclusively on my nearly four 
decades of activity in the nuclear profession, largely uncoupled with 
Battelle. Further, I am not a member of the Battelle team working on 
the INL bid proposal.
    I come to you having formerly served as Professor and Head, 
Department of Nuclear Engineering, Texas A&M University, and prior to 
that some 25 years with Westinghouse Hanford Company in a variety of 
scientific and management roles associated with advanced nuclear 
reactor design and operation. I also had the privilege of serving as 
President of the American Nuclear Society, an experience that has 
allowed me to become aware of the vital global contributions that 
nuclear energy, properly developed and managed, can make to the 
advancement of civilization.
    Because of time constraints, I plan to stress in my oral 
presentation the major driving forces that justify the creation of the 
new Idaho National Laboratory. I have included responses to specific 
questions in the attached written testimony.
    Access to abundant and affordable supplies of energy is crucial to 
development and it is the driving force behind our economy and our 
national security system. Given this reality, when a large and growing 
portion of our energy supply is embedded in unstable regions of the 
world, a monumental price must be paid--monetarily, politically, and 
even militarily. Even more sobering, nations without access to adequate 
energy supplies remain chronically underdeveloped--thereby providing 
the breeding grounds for terrorism to fester and grow in retaliation to 
the wealthy of the world. Finally, there is mounting evidence that in 
our quest for additional energy supplies we need to significantly 
reduce the emission of greenhouse gases that contribute to global 
warming.
    In response to this situation, I believe the United States must:

        1.  Drastically reduce its dependence on foreign oil 
        (particularly from the Middle East);

        2.  Develop domestic energy supplies capable of sustainable 
        development that are consistent with environmental stewardship; 
        and

        3.  Work to substantially reduce the stark differences in 
        quality of life among the peoples of the world.

    In my judgment, the only source of energy capable of credibly 
responding to this situation in the timeframe we have available is 
nuclear energy. True, essentially ALL sources of energy will be needed. 
But it is only wishful thinking to assume that the growth in our 
longer-term, world-wide energy requirements can be provided by a 
combination of conservation, fossil fuels, and renewables. It simply 
cannot be done.
    If we as a nation do nothing to advance the safety, economy, and 
proliferation protection for the next generation of nuclear reactors, 
we will miss a great opportunity to ensure a viable future of global 
nuclear energy deployment. As a consequence, we will leave our economy 
and environment hostage to increasing fluctuations and the unavoidable 
degradation that comes with relying so heavily on a fossil fuel future.
    It is within this context that I welcome the potential for adopting 
a national energy policy that embraces a major new commitment to the 
development of nuclear energy. I am likewise pleased that the 
Department of Energy has designated the new Idaho National Laboratory 
to be the focal point for advanced reactor and fuel cycle development--
the site where over 50 new reactor concepts were built and tested. 
These developments provide a signal that our nation recognizes the 
steps necessary to provide the global leadership needed to enable 
nuclear technology to play the role that only it can play.
    However, it is also my judgment that this new commitment can 
succeed only if the following support is provided:

        1.  A substantial increase in sustained funding. The benefits 
        to be derived from a robust commitment to advanced nuclear 
        science and engineering, including the Next Generation Nuclear 
        Plant (NGNP) as a central focus, are enormous. The higher 
        efficiencies projected from this reactor for the production of 
        both electricity and hydrogen (a key new energy carrier to 
        replace petroleum for transportation), are essential components 
        of a successful energy policy. Attaining a capability where 
        advanced nuclear science is balanced with other energy sources 
        justifies an annual commitment in the range of $300M to $500M 
        over the next few years, as noted by the April 2003 Six 
        Laboratory Group plan ``Nuclear Energy: Power for the 21st 
        Century'' (attached).

        2.  Whereas the focus of the project should be at INL, I would 
        recommend that full advantage be taken of the ``Six Laboratory 
        Directors' Report,'' which represents a solid commitment from 
        the directors of key national laboratories to fully integrate 
        the technical resources (staff and facilities) required to 
        assure success in restoring U.S. leadership in nuclear 
        technology. These six labs, now expanded to seven, (including 
        Argonne National Laboratory, Los Alamos National Laboratory, 
        Lawrence Livermore National Laboratory, Sandia National 
        Laboratory, Oak Ridge National Laboratory, Pacific Northwest 
        National Laboratory, and the current Idaho Nuclear Engineering 
        and Environmental Laboratory) represent the core of government-
        owned nuclear capabilities currently existing in our nation. 
        These laboratories, partnered with private industry and the 
        U.S. academic community, provide enormous potential for 
        success.

        3.  By combining the two complementary capabilities of INEEL 
        and ANL-W into one integrated laboratory, with a clear charter 
        and sustained support, a truly ``World Class'' national 
        laboratory can be created--capable of attracting both on-site 
        talent and engaging the talent remaining at other national 
        laboratories, academic institutions, and private industry to 
        fully integrate the program needed to assure the U.S. with the 
        energy source so vital to our future. By integrating the 
        current Generation IV, Advanced Fuel Cycle Initiative, and 
        Nuclear Hydrogen Initiative programs into a coherent effort, 
        focused at INL but utilizing the best talent the Nation has to 
        offer, the U.S. can, indeed, lead the world in developing the 
        next generation nuclear power plants, including the fuel cycles 
        necessary to minimize reactor waste.

        4.  As a former educator, I wish to stress how important it is 
        for our nation to build new nuclear facilities and support new 
        nuclear research programs to attract and employ the best 
        students that our universities can supply in the nuclear 
        discipline. A combination of new, exciting projects, along with 
        direct university support, is vital in ensuring an adequate 
        supply of next generation, well educated professionals in this 
        important field.

    Now to the specific questions posed:

1.  What should the U.S. goals be in the field of nuclear power? How 
can the new Idaho National Laboratory best contribute to those goals?

    Response: I believe the testimony written above provides the major 
part of my answer. As a target, I believe an aggressive goal would be 
for half of the electricity produced in the U.S. in the year 2050 to be 
supplied by nuclear energy and as much as 25 percent of the U.S. 
transportation fuels supplied by nuclear-generated hydrogen by 2050. 
These are extremely ambitious goals, but I believe we should strive 
hard to meet them. A strong Idaho National Laboratory, properly staffed 
and funded, is essential to providing the leadership necessary to allow 
these ambitious but important goals to be met.

2.  Are there gaps in the Department's present nuclear energy research 
and development (R&D) portfolio? Are there current research programs 
you would recommend discontinuing? If so, please explain your 
recommended changes.

    Response: I believe the current framework is satisfactory. The 
problem is that the funding is so anemic that very little actual 
progress is possible. One of the great tragedies is the continuing 
erosion of the national nuclear infrastructure. Prime examples include 
the shutdown and decommissioning of the Experimental Breeder Reactor-II 
(EBR-II) and the Fast Flux Test Facility (FFTF), the newest reactor in 
the DOE complex. With the combined demand for transmutation of 
objectionable isotopes (to extend the lifetime of Yucca Mountain), and 
the longer-term needs to extract considerably more energy from uranium, 
a new fast spectrum reactor will have to be built--at a cost of at 
least $2 billion. Losses of this nature cannot, in my judgment, 
continue if the U.S. is serious about its commitment to nuclear power. 
I also believe that such losses provide an unacceptable trend in 
reducing the capacity of our nation to produce isotopes for medical, 
agricultural, and industrial purposes. Over 90 percent of the life-
saving medical isotopes currently used in the United States come from 
abroad.

3.  The Department is working in partnership with the nuclear power 
industry to enable a new nuclear plant to be ordered and licensed for 
deployment within the decade. Is the nuclear energy R&D portfolio 
adequate to meet this goal? If not, how could this be rectified?

    Response: The current R&D program is probably adequate to support 
the 2010 new commercial nuclear initiative. What is needed are 
sufficient federal incentives to overcome the risks that any utility 
(or utility consortium) would have to bear in constructing a new 
plant--particularly if the plant were to be located in an unregulated 
market. The utilities MUST have federal incentives or some type of 
guaranteed return in order to reduce the financial risks to commercial 
acceptability for the first new plant order. Incentives could include a 
carbon tax credit, a guarantee for the price of electricity for a time 
long enough to amortize the cost of construction, or other ways to 
allow the private sector to step up to the plate.

4.  The Next Generation Nuclear Plant (NGNP) has been described both as 
a demonstration of commercial viability and as a research test bed. 
What is your view of the purpose of the NGNP? To what extent is the 
design of the NGNP being influenced by the requirements imposed by 
hydrogen production? To what extent will INL be capable of world 
leadership in nuclear energy R&D if the Next Generation Nuclear Plant 
(NGNP) does not go forward?

    Response: I believe the principal purpose of the NGNP is to serve 
as an advanced testbed to demonstrate high temperature operation (both 
for higher efficiency electricity production and for the production of 
hydrogen). However, requesting private participation in designing and 
building the plant represents a first and important step to inject 
strong commercial potential for the plant. Certainly the projection of 
hydrogen is a strong driving force for the particular design underway--
and this is important, since our nation MUST find a way to drastically 
reduce the need for oil, and hydrogen represents a very distinct 
alternative energy carrier. But if the NGNP is not funded and built, 
the INL will not be able to serve as a world class laboratory. It 
simply will not be able to draw the talent necessary to achieve such 
distinction.

    Thank you very much.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                      Biography for Alan E. Waltar

    Dr. Alan Waltar is Director of the Nuclear Energy Program at the 
Pacific Northwest National Laboratory. He joined the Laboratory July 1, 
2002 after serving as Professor and Head of the Nuclear Engineering 
Department at Texas A&M University (now the largest nuclear program in 
the Nation).
    Highly respected by the international nuclear community, Dr. Waltar 
is a fellow and past president of the American Nuclear Society and a 
member of the International Nuclear Energy Academy. He has served as a 
consultant to the International Atomic Energy Agency, Energy Northwest, 
Los Alamos National Laboratory, and the Department of Energy. Dr. 
Waltar chaired the 1998 Gordon Research Conference on Nuclear Waste and 
Energy.
    Before moving to Texas in 1998, Dr. Waltar spent nearly 25 years 
with Westinghouse Hanford Company. His work on projects such as the 
regulatory approval of and subsequent safety and fuels testing in the 
Fast Flux Test Facility earned him a reputation as a leader in nuclear 
safety and technology. Dr. Waltar has authored two books, as well as 
more than 70 open literature publications, and is in demand as a 
speaker on nuclear energy and technology.
    Dr. Waltar holds a doctorate in engineering science from the 
University of California, Berkeley, and a Master's degree in Nuclear 
Engineering from the Massachusetts Institute of Technology. He earned 
his Bachelor's degree in Electrical Engineering at the University of 
Washington.

    Chairman Biggert. Thank you very much, Dr. Waltar.
    Dr. Long, you are recognized for five minutes. Could you 
make sure that your microphone is on?

   STATEMENT OF DR. ROBERT L. LONG, NUCLEAR STEWARDSHIP, LLC

    Dr. Long. I am a Ph.D. Nuclear Engineer with over 45 years 
of experience as a researcher, academic, and nuclear utility 
company executive.
    In 2002 and 2003, I served as chair of the NERAC 
Infrastructure Task Force that was asked to advise the 
Department of Energy concerning the maintenance, upgrade, and 
reconstruction needs of the Idaho National Laboratory, actually 
INEEL and ANL West at that point in time. The Infrastructure 
Task Force was made up of the following members: myself, as 
Chair; Dr. Mike Corradini, Chair of Nuclear Engineering at the 
University of Wisconsin in Madison; Dr. Jose Cortez, Chair of 
Physics and Geology at the University of Texas, Pan-American; 
Dr. Warren Miller, Deputy Director, retired, from Los Alamos 
National Lab; and Dr. Allen Sessoms, President of Delaware 
State University.
    The task force reviewed extensive materials from DOE, the 
INEEL, and the ANL West, and on November 6 through 8, 2002, we 
visited the Idaho site, received briefings and tours of the 
facilities. The task force report was submitted to the DOE on 
January 16, 2003, accepted by NERAC at their meeting in 
November of 2003, and formally transmitted to the Secretary of 
Energy in May 2004. That report included an overview of the 
Idaho site and facilities, including more detailed comments on 
key facilities. At the time of the task force effort, it was 
not known that INEEL and ANL West were to be combined into a 
new entity to be designated as Idaho National Laboratory. 
Members of the task force fully endorsed that decision to 
combine the laboratories under a single management structure.
    Our primary conclusions and recommendations are included in 
my written testimony. I will highlight just a few.
    The task force believes that it is significantly important 
for DOE to have designated a lead laboratory for nuclear energy 
research and development. For the Administration to go forward 
with nuclear energy beyond 2010, the lead lab site at Idaho 
requires an immediate and significant increase in funding to 
just, for example, clean up maintenance backlog and make key 
mission--key facilities mission ready. University participation 
by faculty and students should be a basic element of any 
nuclear energy beyond 2010 R&D. And certainly to optimize the 
use of facilities and staff resources, facilities beyond the 
Idaho site, but in the U.S., that is the other national 
laboratories and international sites in the Gen-IV partner 
countries, should be integrated into the nuclear energy R&D 
plans. Given the designation of INL as the lead nuclear energy 
R&D laboratory, an external review process for laboratory 
activity should be established, independent of NERAC, I think, 
and far more active than NERAC in this particular area. There 
should be broad representation of stakeholders, universities, 
other laboratories, international partners, and other 
interested groups.
    The Subcommittee asked me to address three questions. I 
will focus on just two. The others are addressed in my written 
testimony.
    The first was: ``What role do you recommend that ANL and 
other national labs play in nuclear energy R&D?'' Given the 
wide range of nuclear energy R&D endeavors, active and careful 
coordination will be required with other DOE laboratories and 
universities that are providing leadership as well as crucial 
research support. It is essential that DOE and the new INL 
contractor effectively integrate into the nuclear energy R&D 
mission the facilities and staff of universities, international 
partners, and other national laboratories. It is clear that DOE 
Office of Science and NNSA-funded laboratories are engaged in 
significant nuclear energy R&D activities. Strong direction 
from the Secretary of Energy will be needed to ensure 
appropriate allocation of resources across this wide spectrum 
of activities.
    One of the questions, in part, asked: ``To what extent will 
INL be capable of world leadership in nuclear energy R&D if the 
Next Generation Nuclear Plant does not go forward?'' One of the 
characteristics common to all--to many, but not all, world-
class laboratories is the presence onsite of a user facility. 
Once up and operating, the NGNP, I believe, would not be seen 
as a user facility. However, there are other research 
facilities that could be pursued in the event that NGNP does 
not go forward. An example might be becoming the center of 
excellence for the facilities needed to lead the Advanced Fuel 
Cycle Initiative. Thus I believe that INL will be capable of 
world leadership in nuclear energy R&D whether or not the NGNP 
goes forward.
    Finally, the key to becoming a world-class laboratory is 
the presence of an underlying, long-term commitment to 
excellence and assured funding of both facilities and human 
resources. At a time when our national resources are severely 
challenged, I believe that DOE and OMB will need to make major 
changes in the allocation of DOE resources to fund the 
development of a world-class nuclear energy R&D laboratory at 
Idaho.
    [The prepared statement of Dr. Long follows:]

                  Prepared Statement of Robert L. Long

    My name is Robert L. Long. I am a Ph.D. Nuclear Engineer with over 
45 years experience as a researcher, academic and nuclear utility 
company executive. I am a charter member of the U.S. DOE Nuclear Energy 
Research Advisory Committee (NERAC). In 2002-2003 I served as Chair of 
the Infrastructure Task Force (ITF) that was asked to advise the 
Department of Energy concerning the maintenance, upgrade and new 
construction needs of the Idaho National Energy and Environmental 
Laboratory (INEEL), including Argonne National Laboratory-West (ANL-W), 
as DOE's lead nuclear energy laboratory. The Infrastructure Task Force 
(ITF) was made up of the following members:

         Robert L. Long, ITF Chair, Owner, Nuclear Stewardship, LLC

         Michael L. Corradini, Chair, Nuclear Engineering, University 
        of Wisconsin-Madison

         Jose L.M. Cortez, Chair, Physics and Geology, University of 
        Texas Pan American

         Warren F. Miller, Jr., Deputy Director (retired), Los Alamos 
        National Laboratory

         Allen L. Sessoms, President, University of Delaware

    After receiving extensive written materials from DOE, the INEEL and 
ANL-W, on November 6-8, 2002 the ITF visited the Idaho site and 
received briefings and tours of the facilities. After ITF review, INEEL 
and ANL-W provided updated facility descriptions that were used in the 
preparation of the ITF Report. On January 7-8, 2003 the ITF met in 
Albuquerque, NM to complete their Report which was then submitted to 
the DOE on January 16, 2003. The Report was accepted by NERAC at their 
meeting in November 2003 and formally transmitted to the Secretary of 
Energy in May 2004.
    The Task Force Report includes an overview of the Idaho site and 
facilities, including more detailed comments on a few key facilities. 
Another section discusses a number of human resource and staff issues. 
At the time of the Task Force effort it was not known that INEEL and 
ANL-W were to be combined into a new entity to be designated as Idaho 
Nuclear Laboratory. So, the Report includes a discussion of the 
relationships and memoranda of understanding and agreement between the 
two laboratories. Members of the Task Force fully endorse the decision 
to combine the laboratories under a single management structure. While 
there was not time to examine the roles of universities and other DOE 
laboratories in the nuclear energy R&D missions of DOE, the Task force 
devoted a section of the Report to this important topic.
    The primary conclusions reached by the ITF are:

        <bullet>  It is significant and important for DOE to have 
        designated a lead laboratory for nuclear energy research and 
        development.

        <bullet>  The funding at the Idaho site, given the lead-lab 
        status is clearly insufficient.

        <bullet>  If Idaho site facilities are to be used for the 
        proposed missions (e.g., Advanced Fuel Cycle Initiative, 
        Generation IV Reactor R&D and other nuclear energy work beyond 
        2010) resources must be provided at appropriate levels.

        <bullet>  Where appropriate resources have been made available, 
        world-class facilities (e.g., Advanced Test Reactor, Fuel Cycle 
        Facility) exist and are supported by top-notch staff and 
        innovative programs.

        <bullet>  Conversely there are certain facilities (e.g., Fuel 
        Processing Facility) that have lost their missions and for 
        which significant maintenance challenges exist. These 
        facilities should be abandoned.

        <bullet>  INEEL is urged to develop a facilities consolidation 
        plan, once the NE technical mission is better defined. Note: 
        INEEL has issued a Ten-Year Site Plan that is now available.

    The most important recommendations of the ITF are:

        <bullet>  Given events since the National Energy Strategy was 
        issued, the federal commitment to nuclear energy needs to be 
        restated and reinforced by the White House and other senior 
        administration officials.

        <bullet>  For the Administration to go forward with ``nuclear 
        energy beyond 2010'' the lead lab site at Idaho requires an 
        immediate and significant increase in funding to, e.g., clear 
        up maintenance backlog and make key facilities mission ready.

        <bullet>  University participation (faculty and students) 
        should be a basic element of ``nuclear energy beyond 2010'' 
        R&D.

        <bullet>  Some facilities should be shut down or not considered 
        for further development. This includes the uncompleted Fuel 
        Processing Facility. There may be others such as the Flourinel 
        Dissolution Process Cell (FDP).

        <bullet>  New facilities will probably be needed for the 
        purposes of ``nuclear energy beyond 2010.'' This may include a 
        source of fast neutrons, among others. It is recommended that a 
        specific study be conducted to determine the need for steady 
        and transient fast neutron facilities in the U.S. This study 
        should consider accessibility of existing support facilities.

        <bullet>  To optimize the use of facilities and staff 
        resources, facilities beyond the Idaho site, but in the U.S. 
        (e.g., ANL-E, Oak Ridge, and Savannah River), and international 
        sites in the Gen IV partner countries should be integrated into 
        nuclear energy R&D plans.

        <bullet>  Given the designation of INL as the lead nuclear 
        energy R&D laboratory, an external review process for 
        laboratory activities should be established. There should be 
        broad representation of stakeholders from universities, other 
        laboratories, international partners, and others.

    The Energy Subcommittee asked that the following questions be 
addressed:

1.  What role do you recommend that Argonne National Laboratory and 
other national laboratories with nuclear expertise play in nuclear 
energy R&D after the Idaho National Laboratory (INL) is established?

    The DOE Office of Nuclear Energy has aggressively expanded its 
research and development missions to encompass a wide range of topics, 
such as:

        <bullet>  Advanced Fuel Cycle Initiative (Series 1 and Series 
        2),

        <bullet>  Generation IV Roadmap and associated Advanced Reactor 
        Design,

        <bullet>  Nuclear Energy Research Initiative (NERI and INERI) 
        for basic studies,

    These initiatives along with service to NASA and the Navy in 
nuclear energy activities encompass what might be called ``Nuclear 
Energy Beyond 2010.''
    Such a wide range of endeavors requires active and careful 
coordination with other DOE laboratories and universities that are 
providing leadership as well as crucial research support. It is 
essential that DOE and the new INL contractor effectively integrate 
into the NE R&D mission the facilities and staff of universities, 
international partners, and other national laboratories, e.g., ORNL, 
ANL-East, Savannah River, and Hanford. It is clear that DOE Office of 
Science and NNSA funded laboratories are engaged in significant nuclear 
energy R&D activities. Strong direction from the Secretary of Energy 
will be needed to ensure appropriate allocation of resources across 
this wide spectrum of nuclear energy R&D activities.
    Given the assignment of INL as the lead nuclear energy R&D 
laboratory the DOE should move quickly to establish an external review 
process for laboratory activities to assist in strategic planning and 
missions coordination.

2.  The Department has indicated that INL will be a multi-purpose 
laboratory, but the current strategic plan for the Idaho National 
Engineering and Environmental Laboratory emphasizes the laboratory's 
transition to a focus on nuclear related research. What specific 
programs should the Department support at INL beyond nuclear and 
environmental management related research?

    NERAC has another subcommittee, of which I am a member, that is 
looking at characteristics of world class laboratories and what will be 
needed to have INL reach world class level over the next ten years. One 
issue is whether INL should be a multi-purpose laboratory or be singly 
focused on nuclear energy R&D. For example, we have asked whether the 
Homeland Security mission will detract from the ability to become world 
class in nuclear energy R&D. The Subcommittee has raised an important 
question. I will need further discussions with my NERAC colleagues 
before I will feel competent to identify specific programs that should 
be supported beyond nuclear and environmental management related 
research.

3.  The Next Generation Nuclear Plant (NGNP) has been described both as 
a demonstration of commercial viability and as a research test bed. 
What is your view of the purpose of the NGNP? To what extent is the 
design of the NGNP being influenced by the requirements imposed by 
hydrogen production? To what extent will INL be capable of world 
leadership in nuclear energy R&D if the Next Generation Nuclear Plant 
(NGNP) does not go forward?

    I believe that the NGNP is a needed step in demonstrating the 
capability to economically produce hydrogen as an alternative to the 
burning of fossil fuels. The design of the NGNP is driven by the 
requirements imposed by hydrogen production, that is, the need for 
substantially higher temperatures than those available from the current 
generation of light water reactors. The higher temperatures will also 
increase the efficiency of electrical generation. The R&D needed to 
bring the NGNP to fruition will be demanding and should attract world 
class staff to be involved in the project.
    One of the characteristics common to many, but not all, of the 
world class laboratories that our NERAC subcommittee members have 
visited is the presence on site of a user facility. Once up and 
operating the NGNP would not be seen as a user facility. There are 
other research facilities that could be pursued in the event the NGNP 
does not go forward, e.g., sources of steady state and transient fast 
spectrum neutrons. Another might be becoming the center of excellence 
for the facilities needed to lead the Advanced Fuel Cycle Initiative.
    Thus, I believe that INL will be capable of world leadership in 
nuclear energy R&D whether or not the NGNP goes forward.

    A commitment to substantial long-term funding. In every discussion 
and every reference reviewed by the current subcommittee, the key to 
becoming a world class laboratory is the presence of an underlying 
long-term commitment to excellence and assured funding of both facility 
and human resources. DOE has taken a step in that direction by 
specifying that the new contactor for INL will have a ten-year contract 
term, conditioned on satisfactory performance. At a time when our 
national resources are severely challenged, I believe that DOE and OMB 
will need to make major changes in the allocation of DOE resources to 
fund the development of a world class nuclear energy R&D laboratory at 
INL.

                      Biography for Robert L. Long

    Dr. Robert L. Long is owner and sole member of Nuclear Stewardship, 
LLC providing consulting services in nuclear and industrial health and 
safety, quality assurance, management and leadership. At the end of 
1996 he retired from 20 years service in the nuclear power industry, 
serving as a vice president for 15 of those years. His responsibilities 
included human resources and technical support services in training, 
nuclear safety assessment, quality assurance, environmental affairs, 
licensing and regulatory affairs, radiological safety, emergency 
preparedness, and construction and maintenance. Joining General Public 
Utilities (GPU) in 1978, he was actively involved in the response and 
recovery from the Three Mile Island-2 accident and the restart of TMI-
1. Before joining GPU, he was Professor and Chair of Chemical and 
Nuclear Engineering at the University of New Mexico. In a career 
spanning 45 years he has served on numerous advisory and review 
committees for the Electric Power Research Institute, Nuclear Energy 
Institute, Edison Electric Institute, Accreditation Board for 
Engineering and Technology, Institute of Nuclear Power Operations, 
National Science Foundation, American Nuclear Society, National Academy 
of Sciences, universities, Department of Energy (DOE) and DOE 
contractor laboratories. He is a charter member of the DOE Nuclear 
Energy Research Advisory Committee and is serving in his third two-year 
term. Dr. Long holds M.S.Engr. and Ph.D. degrees in Nuclear Engineering 
from Purdue University. He is a Fellow and Past President (1991-92) of 
the American Nuclear Society. In 1993 he was named a Distinguished 
Engineering Alumnus of Purdue University.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Biggert. Thank you very much, Dr. Long.
    Dr. Klein, you are recognized for five minutes.

     STATEMENT OF DR. ANDREW C. KLEIN, DEPARTMENT HEAD AND 
 PROFESSOR, NUCLEAR ENGINEERING AND RADIATION HEALTH PHYSICS; 
      DIRECTOR, RADIATION CENTER, OREGON STATE UNIVERSITY

    Dr. Klein. Thank you very much.
    My name is Andrew Klein, and I am Professor and Head of the 
Department of Nuclear Engineering and Radiation Health Physics 
at the Oregon State University. I am also the Director of the 
Radiation Center at Oregon State University, which, as such, 
puts me responsible for operating research reactors. So I just 
wanted to bring that out, too. I am also Chair of Department of 
Energy's NERAC Subcommittee on Nuclear Laboratory Requirements, 
and according to the Department's charge to our subcommittee, a 
key Department of the Energy objective is to make Idaho 
National Laboratory the leading nuclear energy research 
laboratory in the world in 10 years after conception. 
Furthermore, our subcommittee is in charge of identifying the 
characteristics, capabilities, and attributes that a world-
class nuclear laboratory would possess. And the Department has 
asked us to report our conclusions or recommendations by the 
end of fiscal year 2004. I expect it is going to be a very busy 
summer for my Subcommittee.
    We have assembled an experienced and dedicated group of 
nuclear science and engineering professionals, including 
members with backgrounds from the nuclear power industry, 
academia, and the national laboratories. Members of the 
Subcommittee are: Dr. Beverly Hartline, who has held leadership 
roles at the Argonne and Jefferson National Laboratories; Dr. 
Long, to my right, who joins us today; Dr. Robert Schock, who 
has extensive experience at the Livermore National Laboratory; 
and Dr. Michael Sellman, who is President and Chief Executive 
Officer of the Nuclear Management Corporation. Since our 
subcommittee has a long way to go before we finish our report, 
I want to stress that my comments here today are my own and not 
necessarily those of, certainly, the Subcommittee nor NERAC 
itself.
    We are conducting a literature review as one of the first 
things that we decided to start with and to look at what these 
characteristics are. It is clear from our early studies that 
this is not the first time this question has been asked on a 
general basis, and we expect to learn quite a bit from the 
works of others. We also plan to visit world-class 
laboratories, including both nuclear energy-related and non-
nuclear laboratories in the United States, Canada, Europe, 
Japan, and South Korea to gather information, talk with 
laboratory leadership, and tour a variety of world-class 
facilities.
    Again, speaking personally and not for the entire 
committee, I feel that there are at least three necessary 
components to a world-class national laboratory, supported by a 
fourth, very essential, element. The first of the three is 
recruiting and retaining world-class people. The second is 
building and maintaining world-class facilities. The third is 
providing world-class research programs to utilize the first 
two. The final building block, though, of any world-class 
laboratory is a resolute and sustained commitment to see the 
task completed.
    I will skip the details on some of the first three, but the 
final one, one comment on that is that the government's 
commitment to date has provided the initiative to establish the 
Idaho National Laboratory and must provide the sustained 
leadership and financial support required for the INL to meet 
its mission.
    My personal observation, though, is that the budgets 
proposed for the development of this new capability are totally 
inadequate. Also, the proposed plan to shift funding to the 
cleanup operation--from the cleanup operation to the new 
nuclear energy R&D mission over a period of 10 years as the 
cleanup mission is completed seems overly optimistic. The next 
few years will be especially critical. What happens during the 
first five years of the INL will strongly determine the path 
that it takes to world-class status. It must be done the right 
way the first time.
    And I have a couple of short answers to the questions you 
posed to me.
    First, you asked me to comment on the role of Argonne 
National Laboratory and the other national laboratories with 
nuclear experience. It is my belief that all of these 
capabilities, and to the list of national laboratories, I would 
add the Nation's universities and industries with nuclear 
energy-related programs, will be needed to go forward if we are 
to fully develop nuclear energy systems that will be required 
to reduce our Nation's dependence on fossil fuels for 
electricity production and, as Dr. Waltar mentioned, 
transportation fuels. All three entities, the national 
laboratories, universities, and industry, will need to play 
important roles in the development of this technology.
    Second, you asked my opinion about specific programs the 
Department should support at the INL if it was to be considered 
a multipurpose laboratory. First, let me believe--say that I 
believe that the INL should not be restricted to the focused 
mission of developing a nuclear reactor for electricity 
production or the production of hydrogen by utilizing a high-
temperature reactor, the heat output from a high-temperature 
reactor. The INL needs a much broader mandate than this. I 
believe INL should be a multipurpose laboratory and it will be 
very important for the Department to support a broad set of 
research activities at the INL.
    It is also going to take more than just nuclear engineers 
to make the INL a world-class laboratory. As you can expect 
from someone who has all of his degrees from nuclear 
engineering programs and teaches in a university nuclear 
engineering program himself, I highly value the skills of 
nuclear engineers, however, they will not be enough. Skilled 
scientists and engineers of all types, including computational 
sciences, mechanical engineers, material scientists, electrical 
engineers will all be needed and more.
    Also, with respect to your question about NGNP, I believe 
that the NGNP development should be a result of creating a 
world-class INL and not the reverse. I don't think we should 
create the capability of the NGNP first. We should create the 
INL first.
    Thank you, again, for this opportunity to talk with you 
about this important issue.
    [The prepared statement of Dr. Klein follows:]

                 Prepared Statement of Andrew C. Klein

    Chairman Biggert, Mr. Larson and Members of the Subcommittee, I 
want to thank you for this opportunity to discuss a very important 
aspect of the energy future of our country. My name is Andrew Klein and 
I am Professor and Head of the Department of Nuclear Engineering and 
Radiation Health Physics and the Director of the Radiation Center at 
Oregon State University. I also chair the Department of Energy's 
Nuclear Energy Research Advisory Committee's Subcommittee on Nuclear 
Laboratory Requirements.
    According to the Department's charge to our subcommittee a ``key 
Department of Energy objective is to make Idaho National Laboratory the 
leading nuclear energy research laboratory in the world in ten years 
from its inception.'' Furthermore, our subcommittee has been charged 
with identifying the ``characteristics, capabilities, and attributes a 
world-class nuclear laboratory would possess''. In addition, the 
Department expects the ``members of this subcommittee to become 
familiar with the practices, culture, and facilities of other world-
class laboratories--not necessarily confined to the nuclear field--and 
use this knowledge to recommend what needs to be implemented at 
Idaho.'' Finally, the Department has asked us to report our conclusions 
and recommendations by the end of fiscal year 2004. I expect it will be 
a very busy summer for our subcommittee.
    We have assembled an experienced and dedicated group of nuclear 
science and engineering professionals for this subcommittee including 
members with backgrounds in the nuclear power industry, national 
laboratories and academia. The members of the subcommittee are Dr. 
Beverly Hartline, who has held leadership roles with the Argonne and 
Jefferson National Laboratories; Dr. Robert Long, who joins us today, 
was a faculty member and Department Chair at the University of New 
Mexico prior to joining GPU Nuclear, from where he has retired; Dr. 
Robert Schock, who has extensive experience at the Lawrence Livermore 
National Laboratory; and Dr. Michael Sellman, who is the President and 
Chief Executive Officer of Nuclear Management Corporation. We look 
forward to providing our input to the Department of Energy on what it 
will take to enable the Idaho National Laboratory to be considered as a 
``World-Class Nuclear Energy Research and Development Laboratory.'' 
However, since our subcommittee has a long way to go before we finish 
our report, I want to stress that my comments here today are strictly 
my own, and not necessarily the views of the subcommittee or the full 
NERAC.
    Our subcommittee is conducting a literature review to learn what 
others consider to be the characteristics, attributes, and qualities of 
world-class research and development laboratories. It was clear early 
in our studies that this was not the first time that this question has 
been asked and we expect to learn quite a bit from the work of others.
    We plan to visit world-class laboratories, including both nuclear 
energy related and non-nuclear laboratories, in the United States, 
Canada, Europe, Japan and South Korea to collect data, gather 
information, talk with laboratory leadership, and tour a variety of 
world-class facilities. Some of the visits that we will make during our 
investigation include laboratories of the Department of Defense, 
Department of Commerce, and other Federally Funded Research and 
Development Centers, in addition to many of the national laboratories 
within the Department of Energy complex.
    We are also conducting a survey of science and engineering leaders, 
again both from within the nuclear community and beyond, to learn what 
they consider to be the key characteristics, capabilities and 
attributes of a world-class nuclear energy research and development 
organization. One of the items we found early in our literature review 
was a report from the National Research Council that established the 
following definition for a world-class research and development 
laboratory [1]:

         ``A world-class R&D organization is one that is recognized by 
        peers and competitors as among the best in the field on an 
        international scale, at least in several key attributes.''

    In our visits and in our survey, we are asking numerous nuclear and 
non-nuclear energy leaders whether they agree with this definition, and 
if not, how would they change or improve it. We are also asking them 
what makes their laboratory world-class.
    Again, speaking personally and not for the entire subcommittee, I 
feel that there are three necessary components to a world-class 
national laboratory, supported by a fourth essential element. The first 
three are: recruiting and retaining world-class people; building and 
maintaining world-class facilities; and providing world-class research 
and development programs to utilize the first two. The final building 
block of any world-class laboratory is a resolute and sustained 
commitment to see the task completed.
    The first, and most important component of building a world-class 
national laboratory is attracting and keeping the very best people. The 
INL will need to attract the best and brightest scientists and 
engineers from many different technical disciplines in order to be 
successful. It will require not just the best nuclear scientists and 
engineers, but will include material scientists, chemical engineers, 
physicists, chemists, computational specialists and a range of other 
specialists who will build the base for a world-class laboratory. 
Attracting and retaining high caliber researchers will be challenging, 
especially in the early years, and it is critical that the INL take a 
flexible approach to get these people involved in the work of the new 
laboratory. The INL may need to include a wide variety of appointment 
types and opportunities ranging from full-time employment to part-time 
appointments or other collaborative appointments to consulting 
arrangements to be able to include the right people in this enterprise. 
The INL will also need to be a leader in utilizing new and expanding 
electronic technologies to draw people in from other geographic areas 
for open collaborations to enable the best ideas to be brought to the 
problems that INL will be tackling.
    Drawing the very best people to come to work with the INL will 
require the second component, establishing a series of highly respected 
and unique user facilities. One aim here is to get researchers from 
universities, industry and other national laboratories to want to work 
with the people and facilities already sited at the INL. It is clear 
that the best people are attracted to working closely with other top 
people in outstanding facilities and locations. University faculty who 
are involved on research projects with the INL will bring their ideas, 
and more importantly their best graduate students to work with other 
outstanding people to make good use of the facilities and 
infrastructure that will be developed at INL. Some of those students 
will be attracted to stay after their graduation, become INL 
researchers themselves, and further build the INL to world-class 
status. The subcommittee has not been tasked with suggesting specific 
facilities requirements, but if you get the top people in the various 
disciplines related to nuclear energy development together, in very 
short time they will arrive at a fairly comprehensive list of needed 
facility improvements and the new and diverse capabilities they need.
    The third component of a world-class nuclear research and 
development laboratory is the specific research programs that will fund 
the research of these top people and utilize these high quality 
facilities. A wide diversity of well-funded research programs will be 
essential to building this laboratory, and to enable the further 
utilization of nuclear energy for electricity and hydrogen production 
in this country and around the world. The diversity of programs will 
also be helpful going forward as budgets fluctuate with different 
administration priorities and other political changes in the future.
    A good example of all of these components coming together to form a 
sustained world-class laboratory is the Jet Propulsion Laboratory, in 
Pasadena, CA. As you know, JPL's main line of research is the 
development and operation of space probes for NASA, but if you look 
deep inside of JPL you will see that it has all of these three 
elements--fantastic people, superb facilities and exciting and 
compelling programs and missions. It also has, on site, all of the 
disciplinary capabilities across the wide spectrum of research and 
development that they need, but they also utilize scientists and 
engineers from across the US to accomplish their missions. INL needs to 
have all of these elements to succeed in its mission.
    Underneath all of this, and providing the motivation and purpose 
for the laboratory is a resolute and sustained commitment from the U.S. 
Government. This persistent support must not just be from the Office of 
Nuclear Energy, but needs to be encouraged by the entire Department and 
as much of the rest of the Government as possible. I also feel that 
Congress should take ownership of this new laboratory to enable it to 
succeed. I am very glad to participate in this discussion today, as it 
shows the Congress's intention to see that the INL gets started off in 
the right direction. The Government's commitment to date has provided 
the initiative to establish the Idaho National Laboratory from the two 
existing entities in Idaho Falls, and must provide the sustained 
leadership and financial support required for the INL to meet its 
mission.
    My personal observation, however, is that the budgets proposed for 
the development of this new national capability are totally inadequate. 
Also, the proposed plan to shift funding from the clean-up operation to 
the new nuclear energy R&D mission over a period of ten years, as the 
clean-up mission is completed seems overly optimistic. The new 
capabilities we are trying to establish at INL need much greater focus 
and commitment than this. The next few years are especially critical. 
What happens during the first five years of the INL will strongly 
determine the path that it takes to world-class status. It must be done 
the right way, the first time.

Answers to questions from the Subcommittee

    First, you have asked me to comment on the role that Argonne 
National Laboratory and the other national laboratories with nuclear 
expertise should play in nuclear energy R&D after the INL is 
established. It is my belief that all of these capabilities, and to the 
list of national laboratories I would add the Nation's universities and 
industry with nuclear energy related programs, will be needed going 
forward if we are to fully develop the nuclear energy systems that will 
be required to reduce our nation's dependence on fossil fuels for 
electricity production and transportation fuels. The national 
laboratories, universities and industry all will need to play important 
roles in the development of the technology related to this energy 
source and in the production of the people needed to design and operate 
these facilities safely and efficiently.
    The Idaho National Laboratory is being established within a number 
of important communities, and I would like to speak here about some of 
these now. The support and encouragement from all of these communities 
will be essential to the INL's success.
    The first community I would like to mention is the community of 
researchers and scholars who are, and will be, involved in nuclear 
energy related research--the primary mission of the INL. That community 
is an international one and the INL must develop close interactions 
with many, if not most of these researchers in order to get the best 
input and ideas in order to apply them to the problems involved in 
developing the systems and components needed. Since it will be 
impossible to lure all of these individuals to come together 
permanently in Idaho Falls, the INL must find creative and innovative 
ways to attract and retain the most important individuals and research 
groups to work closely with them. These individuals and groups 
currently reside in the national laboratories, industry, and 
universities, and some of them are students in our nation's K-12 school 
systems. Interactions with other national laboratories, industry and 
universities should be constant since many of the world's best nuclear 
energy researchers are already located at other locations. Finding 
creative ways to involve all of these people in the development and 
deployment of new nuclear energy systems will be among the important 
success criteria for the laboratory.
    A second community is the local community in Idaho Falls and the 
neighboring areas. While the compelling nature of the activities being 
conducted by the INL will bring excitement to the lives of those 
working directly on the projects at the laboratory, the cultural and 
recreational opportunities of the local area will sustain these 
individuals and their families over the long run of the laboratory. It 
will be important for those involved to build this aspect of this 
second community.
    A third community that will also be valuable to cultivate will be a 
broad set of local industrial capabilities in Idaho and the region--
high tech spinoffs and imports, new and old companies, will be needed 
to complement the activities and capabilities to be assembled within 
the INL. It will be important for the INL to work closely with the 
State of Idaho and the City of Idaho Falls to develop the broad set of 
local industries which will enable the INL to attract people with the 
appropriate nuclear and other technical skills and their families.
    The broad involvement of all of these communities will be essential 
to the development of the INL over its first ten years. They will be 
important to the development of the diversity of the knowledge base, 
the diversity of the talent base, and the diversity of the workforce at 
the INL.
    Second, you have asked my opinion about specific programs that the 
Department should support at the INL if it is to be considered a multi-
purpose laboratory. First, let me say that I believe that the INL 
should not be restricted to the very focused mission of developing a 
nuclear reactor for electricity production or the production of 
hydrogen by utilizing the high temperature heat output from a reactor. 
The INL needs a much broader mandate than this to be considered to be 
successful in reaching the goal of being considered world-class. Thus, 
I believe that the INL should be a multi-purpose laboratory and that it 
will be very important for the Department to support a broad set of 
research activities at the INL.
    It is going to take more than just nuclear engineers to make the 
INL a world-class laboratory. As you can expect from someone who has 
all of his degrees in nuclear engineering and teaches in a university 
nuclear engineering and health physics program, I think very highly of 
the skills and capabilities of nuclear engineers. However, they will 
not be enough. Skilled scientists and engineers of all types, including 
computational scientists, mechanical engineers, materials scientists, 
chemical engineers, physicists, electrical engineers, etc. will be 
needed to supply the INL with the capabilities it needs to achieve its 
mission of reaching world-class status in 10 years.
    Some of the other capabilities that I feel would be important to 
have at INL include computational facilities and software development, 
high performance materials development, applied physical sciences, 
including chemistry and physics, research on manufacturing modular and 
large system components, transportation systems for large system 
components and radioactive waste, and national security technology 
research and development related to nuclear science and technology, to 
name a few. All of these added capabilities are complementary to the 
nuclear energy and environmental cleanup technologies that are the 
natural programs for the INL.
    World-class computational facilities will be an important draw for 
some of the people needed at INL. Several years ago the INEEL was one 
of the leaders in developing computer codes for reactor design and 
simulation. With the advances in computing in recent years much more is 
now possible--it is even conceivable that every molecule of gas flowing 
through a reactor core could be modeled. Leadership class computers 
could open up huge new areas of research in reactor design leading to 
entirely new approaches and conceptual designs.
    High performance software development aimed at a basic principles 
approach to modeling could allow engineers and scientists to eliminate 
the use of correlations and other corrective measures in their 
simulations. This involves a much greater understanding of the physical 
and theoretical treatment of neutron interaction physics, fluid flow, 
heat transfer, materials interactions in these systems at the 
microscopic and molecular level.
    Experimental capabilities are needed to verify, validate, and 
compare computer calculations to actual physical measurements on a 
variety of scales--even full-scale systems. The work in my Department 
at Oregon State University over more than a decade, and our close 
interactions with the Department of Energy, the Nuclear Regulatory 
Commission, INEEL, Westinghouse and others on scaled system simulation 
and testing of a variety of advanced nuclear reactors is a very good 
example of the importance of being able to compare calculations with 
physical measurements to ensure the accuracy of the computer codes that 
are used for system design, safety evaluation and licensing.
    Finally, with respect to your questions about the Next Generation 
Nuclear Plant, or NGNP, I feel that the development and demonstration 
of a high temperature reactor's capabilities to efficiently produce 
electricity for our businesses and homes and hydrogen for our 
transportation needs is important to the progress of INL to world-class 
status. However, development of world leadership in nuclear energy 
development by INL should be considered to be independent of the 
construction and operation of the NGNP. The people, facilities, and 
programs at INL will be very useful to the development and operation of 
the NGNP. However, NGNP development should be considered a result of 
creating a world-class laboratory at INL, and not the reverse. Many 
additional multidisciplinary research facilities and capabilities will 
be required at INL to meet this objective. There are undoubtedly ways 
to design the NGNP to be a versatile, multidisciplinary research tool, 
rather than simply a demonstration project. This will require the 
involvement of the best people at the INL and across the Nation's 
nuclear energy R&D universities, national laboratories and industry.
    Thank you, once again for this opportunity to talk with you about 
establishing the Idaho National Laboratory as a world-class nuclear 
energy research and development laboratory. I look forward to further 
discussions with you today, and in the future.

Reference

[1]  National Research Council, ``World-Class Research and 
Development,'' National Academy Press, Washington, DC, 1996.

                     Biography for Andrew C. Klein

    Andrew C. Klein became the Head of the Department of Nuclear 
Engineering at Oregon State University (OSU) in July 1996. In 2002 the 
Department's name was changed to the Department of Nuclear Engineering 
and Radiation Health Physics to reflect the broad nature of the 
activities in the Department. In October 2002 he also became the 
Director of the OSU Radiation Center with line responsibility for the 
University's 1.1 megawatt research reactor and the other facilities 
managed by the Center.
    Dr. Klein received his B.S. in Nuclear Engineering from 
Pennsylvania State University in 1977. He went on to complete his M.S. 
in Nuclear Engineering and his Ph.D., also in Nuclear Engineering from 
the University of Wisconsin, Madison in 1979 and 1983 respectively.
    He has been on the faculty at OSU since September 1985 after 
serving as a Visiting Assistant Professor of Nuclear Engineering at the 
University of Cincinnati from August 1983 through August 1985. He was 
an Assistant Professor of Nuclear Engineering at OSU from September 
1985 to July 1990 when he was promoted to Associate Professor. In July 
1996 he was promoted to the rank of Professor.
    His research interests are wide and varied including space reactor 
systems design and thermal management, transient analysis of nuclear 
power systems, microdosimetry, radiation shielding, the technical 
aspects of arms control nonproliferation, and health physics. He has 
also conducted research in fusion energy systems design, zircalloy 
corrosion and radioactive waste management. He has been an author on 
more than technical 75 publications in these areas.
    Dr. Klein is registered as a Professional Engineer (Nuclear) in the 
State of Oregon. He is an active member of the American Nuclear 
Society, the Health Physics Society, and the American Society for 
Engineering Education. From August 1993 through October 2002, Dr. Klein 
was the Director of the Oregon Space Grant Program, a statewide 
consortium of universities, colleges, and other educational 
organizations established in 1990 by the National Aeronautics and Space 
Administration (NASA). He served one term on the Board of Directors of 
the American Nuclear Society from June 2000 to June 2003, and has 
served on the Advisory Committee for Nuclear Technology since 1997 and 
as an Advisory Editor for the Annals of Nuclear Energy since 1996. He 
also served on the Board of Directors of the National Space Grant 
Alliance, Inc. from January 2001 through October 2002. In January 2001 
Dr. Klein was appointed by the U.S. Secretary of Energy to the 
Department of Energy's Nuclear Energy Research Advisory Committee 
(NERAC). Dr. Klein was also a member of USDOE's Generation IV Nuclear 
Energy Systems Roadmap Development team and served as the Technical 
Director for the Energy Products Crosscut Group in 2001 and 2002. He is 
a member of NASA's Space Science Advisory Committee and a member of the 
ABET, Inc. Engineering Accreditation Commission.

                               Discussion

    Chairman Biggert. Thank you very much.
    We will now proceed to questions by the Members of the 
Subcommittee, and we try and limit ourselves to five minutes, 
also. So I will recognize myself for five minutes.
    And my first question is for Mr. Magwood. Do you agree with 
the NERAC estimates on the level of investment needed to 
address the maintenance backlog and the equipment upgrades and 
replacement of outdated equipment to bring INL facilities up to 
the world-class level?
    Mr. Magwood. We have, as I mentioned in my statement, been 
in the process of creating a 10-year site plan, and a draft of 
which we have provided to the Subcommittee staff for their 
examination. I won't make a comparison between the estimates 
contained in the site plan and the estimates that NERAC made. I 
think there are some different bases there, but there is no 
question that there is a significant maintenance backlog, there 
is a significant disinvestment that the laboratory has faced 
over the last decade because it did not have a research focus 
in the past, which needs to be addressed. There is no question 
of that. And in particular, we are very concerned about the 
maintenance of the principal user facility on the site, which 
is the advanced test reactor. All of these things require a 
focused effort to deal with the backlog, and we intend to carry 
out that program to address that backlog.
    Chairman Biggert. Well, how does the Department's request 
for proposal (RFP) for the INL treat the other labs? Does it 
involve transfer of people, equipment, or facilities or any 
research and development activities from the other labs to INL?
    Mr. Magwood. We don't anticipate the transfer of people or, 
for the most part, major programs from the other laboratories. 
The only transfer that we have reflected in the RFP is the 
consolidation of our Plutonium-238 activities at the Idaho 
laboratory. We feel that it makes a lot of sense to consolidate 
those activities, because they involve the transport of a 
potentially hazardous--well, a very hazardous material, 
Plutonium-238. And instead of transporting this material back 
and forth across the country, we want to focus the program in 
one place and leave it in one place until the final product is 
sent to NASA, which is the principle customer of national 
security users. Other than that, we expect that the programs at 
the other laboratories will continue as they are and continue 
to grow at a reasonable pace over time, because there are 
important expertise at the various laboratories, particularly 
the ones I mentioned, that we feel are absolutely essential to 
a successful nuclear energy program, and it makes no sense to 
replicate facilities or expertise in the Idaho laboratory that 
are currently available and doing well at other labs. So we 
intend to apply those capabilities.
    Chairman Biggert. Well, since NERAC estimates that there 
needs to be an immediate investment of $90 million to get the 
INL mission ready and you are not going to transfer any, you 
know--anything from other labs, there certainly is going to 
be--has to be a lot of, you know, immediate equipment that 
can't be phased in and actually staffed. Scientists are going 
to have to be hired. And your timeline is what, the 10 years?
    Mr. Magwood. Well, let me clarify that. I--NERAC's 
conclusion, and I think Dr. Long could speak to this better 
than I can, but NERAC's recommendation was that there is a $90 
million backlog. That doesn't mean that you have to do it all 
in one year. It can be done over some period of time, and we 
anticipate dealing with that backlog over a period of time and 
transferring research programs and personnel from the other 
laboratories would not assist us in addressing that backlog. 
What needs to happen is that we need to have a plan, which we 
now have, which the staff has been given access to, to focus to 
deal with the maintenance backlog and to eliminate the backlog. 
And we are going to do that.
    Our plan, which is reflected in our request for proposals, 
is that between now--or between the inception of the laboratory 
early next year, in 10 years from there that the Idaho 
laboratory would have the people, the facilities, the equipment 
that would make it clearly the best nuclear energy research 
laboratory in the world, we hope. And we think that is a 
possible goal. And we think that the NGNP is not the only 
component of that, but it is a very important starting point to 
build that capability in the laboratory.
    Chairman Biggert. Won't transferring the Pu-238 program to 
INL be more costly?
    Mr. Magwood. We think that it will actually pay for itself 
over time, because it is very expensive to transport Pu-238 and 
some of the precursor materials back and forth across the 
country in secure transports, especially as we deal with 
increased security requirements. And also, it makes a lot of 
sense for us to consolidate these activities and consolidate 
the expertise in one place. We think the efficiencies we gain 
from that will make the program pay for itself in about 10 or 
15 years. We don't have a precise estimate at this point; we 
are still developing that. But if this goes forward, I think we 
will find that we have a much, much more efficient program, a 
more secure program, and really a better program.
    Chairman Biggert. All right. Thank you. My time has 
expired.
    I recognize the Ranking Member, Mr. Larson, for five 
minutes.
    Mr. Larson. Thank you. Thank you, Madame Chairman, and I 
thank the distinguished panelists for your comments.
    I was struck by your testimony. It seems that there is 
unanimity in the need and concern for ongoing funding, that we 
are underfunded in many critical areas. I think, Dr. Waltar, 
you suggested about $300 million on an annual basis. I would 
suggest it probably will take more than that. I was also struck 
in the--your testimony, Dr. Waltar, about, excuse me, nuclear 
power. And I wanted you, if you could, to elaborate. I am a big 
proponent of moving from a petro-economy to a hydro-economy, 
and you seem to imply in your testimony that it was only 
realistic--or more feasible, shall I say, that it be nuclear 
power that aides and abets the movement towards--assists 
hydrogen power. You addressed, I think, vehicles in your 
comments or eluded to that. Could you amplify those comments 
and could you explain the relationship between the two, given 
that there is a great deal of skepticism often that exists in 
the public about nuclear energy? I am wondering if the linkage 
between the two could be a bridge towards a technological 
breakthrough.
    Dr. Waltar. Thank you, Mr. Larson. Excellent question.
    Yeah, about 1/3 of our total energy that we use in this 
country is in the form of petroleum and that is, I don't know 
what percent, 90 or 95 percent of our transportation. We know 
that we have peaked our oil production in this country and we 
are getting close to peaking now in the world. And so, at some 
point in time, you know, that resource is going to go away, and 
we know that the resource is in very unstable regions. We are 
very, very dependent on petroleum. So we need another energy 
carrier. And hydrogen appears to be that type of a system. As 
you know, it is hydrogen and oxygen combined and the waste 
product is water. That sounds really good. Now of course, those 
that are not in the business would say, ``Well, there is lots 
of hydrogen in water.'' Yeah, but that is the ash. We have got 
to get the hydrogen out of the water and it takes energy to get 
it. Right now, hydrogen in this country is being produced for 
the petrochemical industry to boost the octane ratings and so 
forth, but it comes from hydrocarbons. And if we continue to 
get our hydrogen there, we are going to be dispersing more 
CO<INF>2</INF> and so forth. It is not--it certainly isn't 
compatible with long-term environmental stewardship.
    So the question posed is that it takes energy to get the 
hydrogen out wherever we get it. And nuclear power looks like 
the kind of resource that, number one, has the sustainability 
to do it. I mean, we, presumably, would have nuclear power here 
for at least a millennium, if we choose to do that. We can do 
so from a very environmentally compatible standpoint, so it 
seems like the one energy source that has all of the attributes 
capable of producing enough energy to get enough hydrogen that 
we can actually displace petroleum for our transportation 
sector. In fact, in this six lab directors report that I think 
I attached to the written testimony, the goal was by the year 
2050 to have about 50 percent of all of our electricity in this 
country produced from nuclear. Now it is about 20 percent. That 
is a huge increase, extremely ambitious. But also, maybe up to 
25 percent of all of the petroleum, if you will, that is being 
used for transportation. Again, huge, huge challenge, but 
nuclear energy does have the capability----
    Mr. Larson. What kind of investment would it take, because 
when you talk to people, you get varying accounts? Now it seems 
to me once the country sets its mind on a vision, if we are 
able to place a man on the moon within 10 years, which I would 
suggest probably is more technologically difficult than being 
able to provide transmission or the heating and cooling of 
buildings with hydrogen, what is the stumbling block? Is it 
simply the amount of money? We are spending over--we are going 
to be over $200 billion in the current Iraqi war. It would seem 
to me if we had 1/10 of that devoted on an annual basis that we 
would be able to extricate ourselves, as all of you have 
suggested, from dependency. How much money? Is there a direct 
correlation between the amount of money, research and 
development, and the time frame it takes to, say, make us not 
energy independent but energy sufficient, even for that matter? 
The good Dr. Bartlett reminds us, of course, that we only have 
about two percent of the world's remaining reserves here, in 
this country, and there is about, I think, 66 percent, he 
reminds us, in the Gulf States where we find ourselves in a 
current quagmire.
    Dr. Waltar. I don't have a good feeling of the total amount 
of money. Maybe somebody else here can help. But clearly, we 
have to at least find out how best to get the hydrogen, and 
this can either be done chemically or through a reverse fuel 
cell kind of technique, and we need to exercise that 
capability. As Dr. Klein pointed out, nuclear engineers, as 
fabulous as we are, can't do it all. We need the chemical 
engineers. We need the entire scientific infrastructure. I am 
sure Mr. Ehlers would know. But good science is needed here, 
because we are talking about processes that are up to around 
800 degrees Centigrade and so forth. There is a lot of work 
that has to be done. Substantially more effort is needed to be 
done. There is no question about it. But we also, then, have to 
develop high temperature designs if nuclear is to be the energy 
source. That is why the high-temperature gas reactor is so 
important, because we have to get temperatures much higher than 
our current fleet of 103 reactors that are operating now. We 
simply don't have high enough efficiencies to do it unless, as 
some would say, we could use electricity during the night and 
so forth, when it is cheap, if you will, to do this. So it is 
possible that we could transition this, but we do need 
sufficient funds to develop the best process to make the 
hydrogen and also to develop the reactor technology to get the 
temperatures we need to do it.
    Maybe, Bill, you would like to talk about the amount of 
money required. I really don't have a good feel for that.
    Mr. Magwood. Well, Mr. Larson, I think that--I will say a 
couple things very quickly; I know your time is expiring. But 
it is not really just the money, because we--for example, the 
NGNP is a vital step in applying nuclear energy to the 
production of hydrogen. If we are successful in doing that. The 
early estimates, which were not performed by my office, but 
actually by our Office of Energy Efficiency and Renewable 
Energy, were that we could achieve the equivalent cost of 
hydrogen through these advanced reactors that would be 
equivalent to $1.50 to $2 for a gallon of gasoline, which, when 
the estimate was made, was about the same as gas, and which now 
would be a pretty good deal, especially for people like me with 
SUVs. So there is a--there is research that needs to be done. 
That research is simply going to take time. But I think that 
really, the more difficult issue is going to be the 
infrastructure, and transitioning over from today's 
infrastructure, which carries electricity in wires and natural 
gas in pipelines, to one where we find a way to move hydrogen 
around. It is going to be a major transition.
    And then beyond that, on the use side, we have a lot of 
research----
    Mr. Larson. It sounds like a great WPA project for our 
nation in desperate need of putting people back to work.
    Mr. Magwood. Well, I will say one last comment, and that is 
that--and it is something that the Department is working very, 
very hard on under the President's National Hydrogen Fuel 
Initiative, which is that we really need to make the fuel cell 
technology as efficient as possible so that we can build these 
vehicles for the future. And I have actually gone around to 
high schools across the country talking about the link between 
hydrogen and nuclear. You should see their eyes light up when 
we talk about this. And they are excited, and we are excited. 
And we think this can be done, but it will take time, and it 
will take some resources.
    Chairman Biggert. Thank you.
    Next is Dr. Bartlett is recognized for five minutes, the 
gentleman from Maryland.
    Mr. Bartlett. Thank you very much.
    There are, I gather, three different nuclear processes from 
which we could get energy: light water reactors and breeder 
reactors, and fusion. Which of these will you be exploring in 
your new laboratory?
    Mr. Magwood. I guess this is a question for me, Mr. 
Bartlett.
    We actually--other than fusion, I think we will explore 
almost every nuclear technology. As I mentioned earlier on, the 
Generation IV International Forum identified six technologies 
of which I think two or three, actually, were liquid metal 
reactor, fast meter reactors. There were a couple thermal 
reactors, but you know, beyond even what you mentioned, there 
are also some other technologies, so there is a wide range of 
technologies. This laboratory will be active in all of those 
areas, but the principle near-term focus will actually be with 
gas-cooled reactor technology and development of the Next 
Generation Nuclear Plant.
    Mr. Bartlett. You will be exploring some technologies that 
do not depend on fissionable Uranium?
    Mr. Magwood. Well, I think that we will be looking at 
different fuel cycle options. There are, certainly, 
technologies that would use, for example, Thorium instead of 
Uranium. I don't think that that is a high priority for us 
right now, because we think there is a lot of Uranium 
available, and particularly----
    Mr. Bartlett. How much Uranium, do you think, is available?
    Mr. Magwood. Well, there are different estimates about 
that. There is actually a lot of argument in the technical 
community about it. As a matter of fact, Commerce tasked us in 
last year's appropriation to develop a better estimate, but 
estimates I have seen range from where Uranium would start to 
run out, maybe, in about a century. And there are others that 
think it would be available much longer than that. But I like 
to assume that the Uranium will be around for the near-term but 
that we need to have some better options for the longer-term.
    Mr. Bartlett. Well, that was the intent of my question. If 
we are looking for a replacement for fossil fuels, we need to 
look at something that will be here for longer than fossil 
fuels. Oil, as was mentioned, we have about 1,000 gigabarrels 
of known reserves in the world. We will find more. We would 
sure as heck like to use more, and so would China and India, by 
the way, that are using enormously more now. And if the more we 
find matches the more we would like to use, we are going to be 
more than lucky. We are not going to find that much more. If 
you divide the 80 million barrels a day we use into the 1,000 
gigabarrels of known reserves, we have about 40 years of oil 
left in the world. And it is not going to last 40 years, 
because we would sure like to use more and we are not going to 
find enough more to match the more that we would like to use. 
So we have got to be looking at something that is going to 
carry us beyond this age of oil. And my understanding is that 
if it is simply fissionable Uranium, that there is not a heck 
of a lot more reserves of that in the world than there is of 
oil. So we have got to be looking at something beyond that.
    And that brings you to breeder reactors, a whole new set of 
challenges. I am a big, big fan of nuclear. We have got to do 
something. And I think, Dr. Waltar, that we could do without 
either nuclear or fossil fuels if, in fact, we exploited all of 
the opportunities we have for conservation, for efficiency, and 
for renewables. There is enough wind, if you can stand all of 
the wind machines on all of the hills to produce all of the 
electricity that we need in this country. But I think the big 
challenge is in educating our people that we have got to do 
something. Going along the way we are now is not acceptable. We 
will come to a big crunch in the future. And the biggest 
impediment to more nuclear power is not our R&D and good ideas 
for better facilities; it is the--it is education. And the 
American--we have a culture which now will not support 
increased nuclear use. We have got to change that culture. How 
do we do that? Do we need some shock therapy somehow? How do we 
do it? And whose responsibility is that?
    Dr. Waltar. I will take a crack at that.
    Mr. Bartlett. Yes, sir.
    Dr. Waltar. I love this committee. You are asking all of 
the right questions.
    First of all, you are absolutely right. We have to think in 
terms of energy resources, we have to have something beyond 
coal and so forth, and I think your discussion implies 
ultimately, if we use the breeder reactor, we can get there. We 
have a millennia sort of thing. You are pouring warm milk in 
front of a puppy dog here since I wrote the book on fast 
breeder reactors. There is another reason that technology needs 
to be pushed on, that is because of Yucca Mountain. The 
question is how can we extend the utility there. And so I think 
one of the programs that Dr. Magwood talked about was, 
ultimately, a fast-spectrum reactor to transmute those things 
so we can go from tens of thousands of years to perhaps a few 
hundreds of years kind of thing and substantially reduce the 
waste.
    On education, this is an incredibly important thing. 
Frankly, more Americans support nuclear energy than we are led 
to believe. Poll after poll after poll would indicate that more 
people themselves understand exactly what you said but they 
don't think their neighbor feels the same thing. You don't feel 
that Mr. Ehlers feels that way. He does. I can tell you that. 
But I think we have to understand something. We have to have 
some leadership. And when we look at the importance of what 
energy does to free our society, to allow us to live the way we 
do, and recognize that the rest of the world is looking at us 
and is green with envy and the frustration that causes. Energy 
is essential for security and for prosperity, we have to get 
there, so we have to look beyond what we have now. And with 
science and technology, there are a lot of levers that we can 
pull, but I frankly would go back to Members of Congress. Tell 
it like it is. We are viewed sometimes as biased to justify our 
own business, so to speak, but frankly, we have to have some 
courage. We have to ring the bell. And it just has to be done.
    Mr. Bartlett. Thank you very much.
    Thank you, Madame Chair.
    Chairman Biggert. The gentleman's time has expired.
    The gentlewoman from California, Ms. Woolsey, is recognized 
for five minutes.
    Ms. Woolsey. Thank you, Madame Chairwoman.
    I would like to point out that when Roscoe Bartlett talks 
like he just did about the future, he drives a hybrid car. He 
means what he is saying.
    Dr. Waltar, Dr. Long, any of you, whenever we speak of 
nuclear anything, I immediately get nervous about human error 
and about waste. So I am going to talk--I hope you will answer 
my waste questions for me. You know. Keeping humans from being 
human and making mistakes is one thing, but creating waste 
purposefully and not having anything to do with it--to do--any 
way to handle it is something else. So when we are talking 
about the Idaho lab and a 10-year window of dealing with the 
waste, I would like you to tell me, any of you that know, will 
it be finished in 10 years and what are we going to do with the 
new waste? And will there be the funds there if we are finished 
with cleaning up the waste 10 years later? You can--whoever you 
think is best to answer this or----
    Dr. Waltar. Let me take personal blame for that. Because 
when I went into this business 20 or 30 years ago, I could have 
gone into the science of treating nuclear waste, if you will. I 
didn't want to do it. Why? Because it was something we didn't 
have to deal with for decades. We reasoned that if the waste is 
so small than we can start later. I wanted to build reactors. I 
wanted to do exciting things. I think I can speak for my 
generation. We did that. Now scientists are not very good 
politicians. 20 or 30 years ago, there was a lot of support for 
nuclear energy. We could have built our waste repositories. It 
would have gone through easily, but we didn't do it, because we 
didn't have to, because, in fact, the waste is so small. Now, 
unfortunately, it has been turned around, and somehow the 
public is of the opinion that this is something that can't be 
dealt with. The reality is the waste quantity is so small that 
there are lots of creative engineers that can think of ways to 
deal with that. And so it sounds like it is not solvable, but, 
as I have indicated earlier, we have ways. We, in fact, can 
store everything from our current nuclear reactors now in Yucca 
Mountain as is currently, but it is not enough. I mean, we are 
going to have to ultimately, perhaps, have more. But I 
mentioned earlier in my question to Mr. Bartlett, there are 
ways to convert this waste from a long-term concern of, you 
know, tens of thousands of years into a few hundred years.
    I should say also that something that has a very long half-
life of several thousands of years sounds dangerous. The fact 
is that is far less dangerous than something that has a short 
half-life. I mean, arsenic and lead and these things have 
infinite half-lives. So I think there is a question of how to 
convey the fact that nuclear waste, yeah, it is not something 
we want to put in our pocket, but there are scientific ways to 
deal with this. So from a technical standpoint, it is not an 
issue. It really, quite honestly, is a political one.
    Ms. Woolsey. Well, okay, let us--Yucca Mountain is not a 
sure thing. And it is being challenged every which way. And no 
matter how small it is, doesn't it have to go some place? What 
is it going to cost? Who is going to pay for it? And is it 
going to happen?
    Dr. Long. I--Ms. Woolsey, I think it is certainly important 
that you understand that the utility industry has been 
collecting 1/10 of a mil per kilowatt hour from the beginning 
of the generation of nuclear power and that there is now about 
$17 billion in that fund that has accumulated to provide for 
the disposal of the waste. So the money is there. The Congress 
has had difficulty allocating it so that the progress on Yucca 
Mountain could move forward. I am a past President of the 
American Nuclear Society as well as Alan, and in 1991, I gave a 
speech at a Russian conference about the history of our dealing 
with nuclear waste, and they said they didn't believe it. We 
couldn't be so messed. We had just not done the things that we 
needed to do. We haven't done the things that the Congress has 
directed us to do. We let it slip. But as Alan said, the 
volumes of waste are very small, and the storage of the fuel at 
the site is the way that the industry now takes care of the 
high-level activity in the spent fuel.
    Ms. Woolsey. Is there no other way to--a more scientific 
way to deal with waste than Yucca Mountain? Obviously not, or 
you would have said yes right away.
    Dr. Long. Well, Alan has mentioned that you can transmute 
the waste. You put the spent--the fission products and the 
trans-Uranium products into a fast reactor. You can convert 
some of them to much less harmful isotopes. So there are ways, 
and that is part of the Advanced Fuel Concepts Initiative that 
the Office of Nuclear Energy is directing.
    Ms. Woolsey. All right. Thank you. My time is up.
    Chairman Biggert. Thank you very much.
    I recognize another doctor, Dr. Ehlers, the gentleman from 
Michigan, for five minutes.
    Mr. Ehlers. Actually, I could use 20 minutes, but I will 
try to do what I can.
    First of all, just a comment on the issues that were just 
mentioned, which are largely political. Many years ago, I did a 
fairly--took a fairly good look at the environmental dangers 
and aspects of power generation of various types, and I came to 
the conclusion that coal-fired plants and perhaps gasillary 
plants and nuclear power are all equally bad, and that is 
simply because they each have very difficult environmental 
problems. And obviously fossil fuel is a difficult problem 
because of the greenhouse gases and the effect that it could 
have on climate change. The nuclear industry, of course, has 
the problem of dealing with waste and potential disasters. 
Frankly, I would much rather deal with a few hundred cubic 
yards of nuclear waste than to try to contain the greenhouse 
gases from fossil fuel plants. And yet the public chose the 
other option. And I have had a--I have been a member of the 
Sierra Club for over 30 years, and I have had many arguments 
with my fellow members on that topic. I just think they have 
pushed an alternative that is really not that good. The best 
alternatives are doing other things. Hydrogen, of course, if we 
can produce it in a non-polluting way, would be good, and that 
is why this particular project is so extremely important 
because if we don't do it this way, we are going to do it from 
fossil fuels, which just compounds the problem we already have.
    Now on the proposal itself of what this hearing is about, 
I--it probably makes sense to consolidate things. I am not yet 
convinced it is--consolidating in Idaho is the best thing. I 
just don't know, at this moment, where the most expertise 
resides and the best facilities, but I am certainly willing to 
consider that. At the same time, it sounds to me like kind of a 
half-baked proposal. Maybe I just don't know enough of the 
details, but when you come out with a proposal to consolidate 
and reduce the funding by $6 million, that means you are not 
serious about the project, because if you really want to 
combine this and really want to achieve the goal of developing 
this new type of reactor and including looking at hydrogen 
production, you are talking big money. And so there better be 
big money behind this proposal, otherwise it is really 
meaningless, and I am not sure it is worth going forward with.
    We have got a lot of infrastructure to develop, too. We 
have allowed nuclear engineering education programs to wither 
on the vine, so we don't have as many experts out there as we 
need if we are serious about going in this direction.
    A question I have is where is the rest of the world on 
this? Are we just going to be playing catch up or are we better 
off just using the knowledge that they have developed, because 
they have continued their work on this? And why--what is our 
advantage of going ahead with our own efforts? Are we going to 
be duplicating it or are we trying to do something so new and 
different that it is worth the investment, a very large 
investment, that we have to make in this? So that is my first 
question.
    Mr. Magwood. Well, let me try to answer that.
    First, let me thank you for that comment. I agree with many 
things you say. I hope to convince you, over time, that our 
plan for the Idaho laboratory is the right approach to build a 
central command center, as Secretary Abraham has put it, for 
nuclear engineering research. And I do believe that the 
expertise that is available in Idaho gives us an excellent 
starting point in creating such a laboratory. We are going to 
work with the laboratory, the Idaho National Laboratory, to 
coordinate very closely with our international partners. As I 
mentioned, we have formed an organization of governments called 
the Generation IV International Forum, which now has ten 
members, that is very closely coordinating research in most of 
the key areas associated with new technologies in nuclear 
engineering research. And these countries are going to 
implement research and development plans together. For example, 
in the case of the NGNP and the very high-temperature reactor 
technology that it is based on, we, the Japanese, the French, 
the Koreans, and the South Africans, actually, have already 
begun work on a joint research plan to advance that area of 
technology. And in doing so, we will be able to avoid 
duplicating the effort that the others have accomplished. The 
Japanese, in particular, have recently achieved remarkable 
success in one of their facilities in reaching a temperature of 
950 Centigrade, which is getting very close to the level that 
we are aiming for in our reactor design, and also have produced 
hydrogen in a limited quantity. So they have made an investment 
over the '90s that we hope to benefit from. And we think that 
when we look at what they have accomplished and what the French 
have accomplished and what some of these other countries have 
accomplished, working with our Idaho laboratory and doing new 
research in key areas, we will be in--successful in pulling 
this together and having--if the decision goes forward to 
actually proceed with this, having a facility that is actually 
making electricity, making hydrogen some time in the middle of 
the next decade. So we think this is very possible, and we are 
off to a good start, I believe.
    Mr. Ehlers. Okay. Let me just make one last comment, since 
my time has expired, on the political nature that Dr. Waltar 
observed. And you are right, scientists tend not to be good 
politicians, with the exception of the two sitting right here, 
but the industry has done a terrible job, and I said this many 
years ago, and then it kept running these ads saying, ``Nuclear 
power is safe. We have made it safe. Nothing can happen,'' 
which is a stupid thing to do, because things do happen. So 
when Three Mile Island happened, everyone--they lost all 
credibility. If they had simply said, ``We have made them safe 
so that when accidents happen, it won't hurt you. We may lose 
$2 billion, but it won't hurt the public,'' then Three Mile 
Island would have verified--exploited what they said, and it 
would have been a totally different issue. Promising total 
safety is an absurd thing to do and you can't do it.
    Thank you.
    Chairman Biggert. Thank you, Dr. Ehlers.
    Dr. Gingrey from Georgia, the gentleman from Georgia is 
recognized for five minutes.
    Mr. Gingrey. Thank you, Chairman Biggert.
    Dr. Long, in Dr. Klein's testimony, he said that the Next 
Generation Nuclear Plant could be designed to be a 
multidisciplinary research tool rather than as simply a 
demonstration project. But you suggest in your testimony that 
the Next Generation Nuclear Plant should not be seen as a user 
facility for researchers. Can you explain your disagreement on 
this--or seemed disagreement on this point?
    Dr. Long. Yes, sir. It is--I think the NGNP research that 
is needed can be a center of excellence kind of exploration, 
and I believe that is what Dr. Klein was referring to. My 
specific comment was that once it is completed and is now in 
the production mode that it would not then be seen, I don't 
believe, as a user facility. So that is the difference that--
the research--as Mr. Magwood has pointed out, there is a number 
of quite extensive research efforts, high-temperature materials 
and the transport of hydrogen, lots of things that need to be 
done that could be--to form a center of excellence, which could 
be very attractive. Once the facility is completed, however, it 
will become a production facility, and I spent 20 years of my 
career in the power industry. And people who are in production 
mode don't do much research.
    Mr. Gingrey. Dr. Klein, your comment?
    Dr. Klein. Since Dr. Long are in this Committee, we haven't 
gotten very far. That is an open question for discussion, but I 
would agree with what he just said. When we start operation of 
the NGNP, it likely will be just a production facility and 
that. But I think it can be designed so that while we are 
getting there, and even while it is being operated, maybe we 
can get some continued research out of it. The completion 
between research and production will be severe, and often 
research will lose out.
    Mr. Gingrey. Well, that is a segue into my next question, 
and I will direct this to Dr. Long, you, and also Dr. Waltar. 
What new facilities are needed to carry out the Department of 
Energy's nuclear energy R&D missions? Should all of these new 
facilities be built at the Idaho National Laboratory?
    Dr. Long. I will answer the first part--the second part 
first, no; it will not all be done, and I think Mr. Magwood has 
pointed that out. We set--I--from when I did my piece--
dissertation at Argonne, I worked as a student at Oak Ridge, so 
I am familiar with other laboratories and capabilities there. 
So the role of Idaho, I see, is one of coordinating, 
facilitating, guiding the whole process and identifying. One 
facility that is clear, to me at least, will be a source of 
fast neutrons. And we have shut down the reactors that can 
produce fast neutrons for fuel development. So where that 
should be developed, I think, is a question that will have to 
be answered over time, but is certainly one of the ones that 
will be needed. And then extensive high-temperature materials 
research will be needed. And I think that will fall into the 
various laboratories, not just at Idaho.
    Mr. Gingrey. Dr. Waltar.
    Dr. Waltar. Well, I tend to agree with that. But I think it 
is awfully important that we make the commitment on this new 
reactor at Idaho for several reasons, to galvanize our 
commitment toward high-temperature for the possibility of 
hydrogen production. That is very, very important, as comments 
were made earlier. Secondly, we have to recognize, and several 
people have recorded this, we need the best and brightest in 
this field. This is not rocket science. It is better than that. 
And a lot depends on success, as Dr. Ehlers has said. I mean, 
we can't make gross mistakes here. So it is very important that 
we attract the best and brightest students in the Nation to 
come into this business. And what attracts them more than 
anything else is a program that is moving, something real, 
something that they can identify with. And I believe that this 
new reactor that we are talking about is the right first step. 
As Dr. Long pointed out, we will need other facilities, and we 
will need side facilities with other national laboratories to 
support this, but that focus has enormous appeal to the next 
generation, and we simply have to get them into this business.
    Mr. Gingrey. Thank you.
    Thank you, Madame Chairman. I yield back.
    Chairman Biggert. Thank you, Dr. Gingrey.
    We will start another round, then, and I will recognize 
myself for five minutes.
    All right. Dr. Klein, in your written testimony, you site 
the Jet Propulsion Laboratory in California as an example to 
follow. You said that JPL specializes in deep space probes but 
also supports a wide spectrum of research. How should INL 
emulate JPL's example? And should INL's R&D portfolio be as 
broad as that of the other DOE multipurpose labs?
    Dr. Klein. JPL is one of the routes we took already in the 
process that we are going through. We learned quite a bit about 
them. There are some things that can be replicated in Idaho. 
There are many things that can not. It is going to be a 
challenge of the new maintenance operations contractor to do 
that. For example, there is no Cal Tech in Idaho Falls. It is a 
reality. So they are going to have to come up with ways to work 
with regional, local, and national universities to bring in 
that talent that the Cal Tech, being right next door, does. The 
new technologies will allow that. We can find ways to bring 
people there from anywhere from an hour to full-time. It 
doesn't have to just be sitting onsite in Idaho Falls to do 
this. It is going to take a challenge.
    Chairman Biggert. I know that Idaho is a--is not a large 
state, but it has got a lot of wide open spaces, and it doesn't 
have the metropolitan area that I know a lot of the labs have 
to have in the universities there, and so we--are we really 
going to then have to develop at that site or nearby the 
universities of the caliber of Cal Tech if we are going to have 
this to be a leading lab?
    Dr. Klein. I think that would be a very--that part of it 
would be a challenge, but it doesn't mean it couldn't use the 
distance education technology, the high-tech technologies we 
have developed. Communication skills now are much better than 
they were when we set up JPL in 1950. So I think good as much--
in fact, JPL grew out of Cal Tech. I think that this is a 
different picture. I think it is going to be a challenge to do 
it, but I think the capabilities are there to get the people 
that need to be involved in these programs, whether they are in 
Chicago, at Argonne, whether they are at Oak Ridge, whether 
they are at Brooke Haven, Los Alamos, any of the other labs, 
and particularly, the universities across the country.
    Chairman Biggert. That leads to another question for--maybe 
for you or for Dr. Waltar that Argonne National Lab has 
considerable expertise in computing and simulation that could 
be used to model an advanced reactor design. Should we begin 
with a collaboration between INL and Argonne to simulate the 
proposed designs for the NGNP or why wouldn't we take advantage 
of the improvements in high-performance computing to refine the 
reactor at the time before investing $1 billion?
    Dr. Klein. I would like to see a collaboration be very 
strong between the two groups. I think that it is absolutely 
necessary to have that collaboration. Where you put the 
computers that do that doesn't really matter these days 
anymore. I think that really--they can be put anywhere, pretty 
much. But I think the collaboration is going to be very 
important to get down to the basic principles of science to get 
those down as far and get rid of correlations, simple things 
like that in these models. I mean, new model development is 
going to be critical.
    Dr. Waltar. Maybe I could just add to that. I spent a lot 
of my career at Argonne National Laboratory East. I have 
enormous respect for the capability. And you are absolutely 
right, a lot of the early models and more, very sophisticated 
modeling would be done there. But you know, as Andy pointed 
out, I think we are hearing that we can collaborate, we must 
collaborate. The reality is a lot of the professionals at the 
laboratories simply don't want to move. It wouldn't matter 
whether they were asked to move to Idaho or moving to somewhere 
else. Their families are there. They have grown up there, and 
they like it. So we have to find a way to take advantage of 
those professionals, and frankly, if there is major science 
going on, it will happen. The collaboration will take place. I 
think we can say, you know, the networking is powerful. This is 
not a huge business. It is not like many other industries. Most 
people know each other. And as long as we have got a good, 
aggressive program with strong leadership, people can work 
together. They really, truly can.
    Chairman Biggert. Well, I think you are absolutely right, 
too. We are going to have to have more nuclear scientists and 
engineers, because so many are, you know--I think within five 
years, 75 percent will be eligible for retirement. And if we 
don't bring the young people----
    Dr. Waltar. I have jet black hair. I just paint it gray!
    Chairman Biggert. Thank you. And then Dr.--or Mr. Magwood, 
the NERAC Infrastructure Task Force had, I think, urged the 
Department not to link the INL funding to future decreases in 
funding for the Idaho cleanup project. And I am bringing this 
back to basic questions, so I make sure we--I think we have had 
a really good talk over. This is kind of a--but just what is 
the Department's response to that recommendation?
    Mr. Magwood. Well, I think what I can say about that is we 
really have seen the impossible decreases in funding for the 
environmental management program in Idaho as an opportunity. I 
think that as EM program is successful in accomplishing its 
missions, it will free up the budget targets, which are 
increasingly dearer these days, that can be applied in Idaho to 
the research mission. I don't--I see that as an opportunity. I 
don't see that as a limitation. I think that what we are 
planning right now for the NGNP is not predicated on the EM 
program. I think it is really--I think--but I do hope that that 
does occur, because as EM completes its mission, not only frees 
up resources, it really gets out of the way, and once it----
    Chairman Biggert. I guess the problem is that it is not 
going to be immediate, and we have been talking about how 
important this is and--you know, to develop the nuclear to take 
the place of the fossil fuels, so it seems to me, then, that we 
are just delaying this.
    Mr. Magwood. But again, I don't think that we are waiting 
for EM to go down before we go up. We really are looking right 
now at what is necessary to go forward with what we have talked 
about. And I am not linking that, at this point, to----
    Chairman Biggert. But we have had a decrease in funds, and 
that is--I think, as Dr. Bartlett said, do we really have a 
commitment to do this then, not only doing this plus the 
decrease in funding?
    Mr. Magwood. Right. I think the Department has a 
commitment. I have worked very closely with the senior 
management department. They take the development of the 
laboratory, they take the NGNP and the Advanced Fuel Cycle 
Initiative, and other programs very, very seriously. I do think 
that the fiscal year 2005 request did reflect, you know, a lot 
of tightness in the budget that we had to deal with last year 
for a lot of reasons that I think you are very familiar with 
and also reflected the state of some of the programs where we 
had to make some tough choices. And I think it was reflected in 
the request. But I also recognize that--you know, that we are--
we do have to balance--or we have to live within the 
constraints, and we have to fight for our programs and other 
programs fight for their programs. And I think you will see the 
nuclear energy program do quite well as things go forward in 
the future. I actually feel like we are getting off to a good 
start, because--mostly because I think we have such a strong 
planning basis. And I think the word that the people here at 
this table have--including Dr. Waltar, while he isn't a member 
of NERAC, has served on the Advisory Task Force for us, and I 
think that we have one of the strongest playing bases of any 
technical program in the Department. And I feel very confident 
that that will prove to be very beneficial as we are fighting 
for funding in the future.
    Chairman Biggert. Thank you.
    The gentleman from California is recognized.
    Ms. Woolsey. Thank you, Madame Chairwoman.
    Dr. Klein, every one of our facilities has stockpiles of 
nuclear waste and materials. And there is the concern, of 
course, about security. So how are we doing inside the 
facilities and Homeland Security? Are we addressing this, the 
stockpiles of nuclear waste? And what else do we need to do?
    Dr. Klein. Most definitely. The--there have been 
significant increases in the last 21/2 years in the amount of 
security and the activities on the sites of, I am sure, all of 
our facilities, including our little one in Oregon. We take 
very seriously our role of protecting that material. Going for 
it, I know the nuclear utilities around their plants have spent 
a large amount of money. I have talked to the utility 
executives. They are concerned about the amounts of having to 
spend, but they are spending a lot of money and putting the 
emphasis on protecting those materials.
    Ms. Woolsey. Okay. Well, it is one thing to be spending 
money and another thing to be successful. So now is there 
anything we are not doing that Homeland Security should be 
addressing? I mean, we are in the middle of this right now, and 
to overlook it would be a big mistake.
    Dr. Klein. I don't feel confident to answer that question 
more than for my local facility.
    Ms. Woolsey. All right.
    Dr. Klein. I think we are doing the best at our facility.
    Ms. Woolsey. All right. Dr. Long.
    Dr. Long. Yes. I am on the Environmental Safety Health 
Panel for the University of California who has oversight over 
Lawrence Berkley, Lawrence Livermore, and Los Alamos. I have 
been on the Los Alamos review panels for about eight years now 
and the other two for the last two years, and there has been 
significant reductions in the waste--the legacy waste, 
particularly, that have been left over from years of the bomb 
development in the original--from the '40s and the '50s and 
then with the Cold War. It is very impressive when you see the 
actual numbers, and I can't quote them to you, but there has 
been very, very significant reductions in the waste. Sandia 
laboratories and their nuclear facilities just interviewed some 
people a few weeks ago where they were describing literally 
tons of material that has been taken out of their facilities 
for proper storage.
    Ms. Woolsey. Well, is this in response to 9/11 and the fear 
of terrorism? I mean, this is what I am getting at with 
Homeland Security and how vulnerable you all are.
    Dr. Long. Some of it is in response to that, but I think in 
terms of the reduction of the legacy waste, that has been a 
long-term policy of DOE that they have worked at consistently 
for a number of years. In the security area, there are 
certainly major efforts in all of those laboratories that I am 
closely associated with to identify potential problems to 
correct them, to increase the security levels where needed. So 
I am convinced that people are very sensitive to potential 
threats of terrorism and addressing them.
    Ms. Woolsey. Well, is there anything the Federal Government 
should be doing? Dr. Waltar.
    Dr. Waltar. Yes, to add, I think to what has been said, I 
don't disagree personally. I have very little experience 
directly in the security area, but again, everything that I 
have heard said here is consistent. I know I have talked to 
some utility executives as well, and the laboratory people. You 
know. They are in the spotlight, they recognize. We live this 
side of 9/11. I couldn't say that there isn't something 
additional we could do, but, you know, at some point in time, 
the returns are--I am just not really qualified to----
    Ms. Woolsey. Mr. Magwood.
    Mr. Magwood. Well, I think we clearly have taken the steps 
that we can take at this time. We have really focused a lot on 
our security infrastructure. We have, I think, improved things 
significantly since 9/11. I don't think there is any question 
of that. The Department has taken on the practice of 
consolidating the location of nuclear materials. For example, 
the decision was very tough for us, we have moved from a site 
in Ohio where we were storing Plutonium-238 and doing work 
there, and it was a very good site for us, and moved it to 
Idaho, because we felt it was safer in Idaho than it was at 
this site in Ohio. And more of that sort of thing will take 
place. Secretary Abraham is very serious about this. I don't 
think there is any issue that he takes more seriously than the 
security of our infrastructure. And he has watched the--a look 
in exploration, the possibility in enhancing our guard forces, 
possibly even federalizing the guard forces to make sure we 
have the highest quality of protection. And I tell you, I have 
visited, just recently, one of our sites and found that the 
guard forces there were kind of scary, quite frankly. So I 
wouldn't advise anyone to take a run at any of our facilities. 
I think they will find that they will be challenged quite 
severely.
    Ms. Woolsey. Thank you.
    Chairman Biggert. Thank you very much.
    The gentleman from Maryland, Dr. Bartlett.
    Mr. Bartlett. Thank you.
    When was the last time we licensed a new nuclear power 
plant?
    Dr. Long. The last one was in 1991.
    Mr. Bartlett. This industry, since we are not building new 
plants and many of them are coming up to their age limit, they 
probably don't--they probably see themselves as a somewhat 
threatened industry, and I would understand their reluctance to 
be involved in cost share. How much of the nuclear energy R&D 
is industry cost share?
    Mr. Magwood. I guess I should answer that. It--there isn't 
a program. I think that if you look at, for example, the 
programs we have like Nuclear Power 2010, which are more 
focused on near-term deployment of nuclear plants, it is a 50/
50 cost share. We expect the industry to put up as much as we 
put up. For some of the very long-term technology, such as the 
use of advanced nuclear technology to produce hydrogen, we are 
not really expecting a very large industry cost share with 
that, because it is really beyond where industry's mind is at 
this point. For the Next Generation Nuclear Plant program, we 
are hoping to see a cost share, not just with the industry, but 
with the international community, over the life of the project. 
We are hoping to get 50/50, but we are--we will see how that 
pans out. But you know, we think that cost sharing is 
important, not just because it saves the government money. I 
think that is the last reason to do it. I think it is important 
because it shows what industry, in the industry's judgment and 
the private sector's judgment, which I think, in these things, 
is better than our judgment, quite frankly, and what they think 
really is relevant and important to the future. And I think 
cost sharing gives you that guidance.
    Mr. Bartlett. So the appropriate cost share is determined 
by the specific project and how quickly that could be 
commercialized and how much benefit industry sees that they 
would get from that.
    Let me ask you a generic question that I think a great many 
of our citizens are asking about our nuclear waste. We have a 
nuclear waste, which is so hot that we have to squirrel it away 
for maybe a quarter of a million years. I think a lot of people 
are having a problem understanding why something that has that 
much energy in it can't be good for something. Can you help 
explain why this stuff, which is so hot, we have to put 
somewhere out of sight for a quarter of a million years, isn't 
it good for something?
    Dr. Waltar. Let me take a quick crack at that. Yes, it is 
good for something. Frankly, to take our spent nuclear fuel and 
throw it in the ground, to me, is an atrocity. For one thing, 
the original high heat comes principally from Strontium-90 and 
Thesium-137, fission gases. Frankly, Thesium-137 is a good 
gamma emitter. It probably could be used for cleaning up 
municipal sewage areas. I chaired a Gordon Research Conference 
a few years ago. This--I don't know if many people are familiar 
with that. It is where scientists--the best scientists in the 
world get together and discuss what they want to and nothing 
leaks out of that because for fear that their funding could be 
cut or something like that. Now I had the audacity to suggest 
that perhaps we should be looking at what we now called waste 
as a resource. If we could look ahead, cubby-style, begin with 
the end in mind, the Strontium-90 could be used for power 
sources to power underground cables from New York to London or 
Paris rather than using copper wires until we are to re-
energize these cables and so forth. There is a lot of potential 
if we think of it in terms of possibly using this as a resource 
rather than waste. Strontium-90, again, when the daughter 
product is Itrium-90, a good beta emitter that is now being 
used for many medical purposes. In fact, a study that was done 
in 1995 indicated that nuclear technology as such far more was 
going into nuclear medicine, agriculture, industry and so forth 
than in nuclear power. I mean, something like $330 billion a 
year. Only $90 billion in nuclear energy. So a lot of these 
byproducts, if we are smart enough to use those, and clearly, 
the fuel that--if we throw the stuff in the ground that still 
has Plutonium in it, that, of course, can be cycled back to 
your earlier question, it can be used in the breeder reactor 
and so forth. We can extract enormous amounts of energy. So I 
think we have to rise above the rhetoric, if you will, and 
recognize, yes, rather than being a waste, this, in fact, could 
be a tremendous resource. We have stuff concentrated that 
potentially can be used. Now that is not to suggest that we 
trivialize this. I don't, in any sense, suggest that. You know, 
we have got to protect it, but frankly, I think we need to 
start thinking about this in a way of how can we use this 
resource rather than throwing it away.
    Mr. Bartlett. I would suggest that an aggressive program to 
do just that would go a long way to convince the American 
public that this is something we ought to be doing. We have far 
too much waste across our whole country that could become a 
resource, and we just live with the old view that it is, you 
know, a waste. And there is almost nothing that should be a 
waste. Almost everything is good for something, and there is a 
challenge to figure out what it is good for. And I am not sure 
that we are aggressively addressing that challenge in our 
nuclear waste.
    Thank you very much.
    Chairman Biggert. If the gentleman would yield for just a 
moment, Argonne lab, we have been working on--they have been 
working on this issue for a long time with the EMT. I know Mr. 
Magwood and I have discussed this many times. And then it went 
to the spent fuel and transmutation, I can't even say the name, 
and then now it is the Advanced Fuel Cycle Initiative. And so, 
this is to negate these for their storage, because it would 
reduce the spent fuel so that it--right now, Yucca Mountain 
is--all of this waste was put into the Yucca Mountain that we 
now have. It would fill it up, and this reduces not only the 
amount that would go in there, but also the number of years 
down to 300 years, I believe it is. So I think there really is 
this going on, and I don't think that too many people know 
about it.
    Dr. Ehlers is recognized for five minutes.
    Mr. Ehlers. Thank you.
    I just wanted to add that when you, Madame Chair, you asked 
the question about people coming to the national lab, and I 
have to express some reservations about that. It is kind of a 
remote location, and most of the national labs, which have lots 
of users flying in and out, are located near transportation 
facilities and so forth. I think, Mr. Magwood, you should be 
very concerned about that. Perhaps build a small airport on 
site if you are serious about getting people in and out on a 
regular basis.
    I just--a couple questions. First of all, this Next 
Generation Nuclear Plant, is there a cost estimate on that, Mr. 
Magwood?
    Mr. Magwood. Very preliminary cost estimates. It is--it 
clearly will be probably between $11/2 billion and $2 billion, 
if--when you include all of the research and everything that 
goes into it, but that is a very, very preliminary estimate.
    Mr. Ehlers. Okay. And that is about the ballpark I would 
have guessed. So it is a huge facility. It is not clear to me 
from some of the comments made here whether this is intended to 
be primarily a research facility or a production facility. I 
have heard different answers from the panel. What is your plan?
    Mr. Magwood. Well, I can certainly tell you what our plan 
is. We see the NGNP as a pilot facility that we would like to 
see a Nuclear Regulatory Commission certification granted to, 
so that the next--so that we would not just simply be an 
experimental facility that a commercial utility could then, if 
this proves successful in the future, could replicate or nearly 
replicate the facility, with some modifications, obviously, 
because of the experimental nature of this, and then go to the 
commercial mode. We think that that is the target that makes 
sense for this, because we are not anticipating that this will 
be something that will be used for testing materials or testing 
fuels as much as it is to prove the concept is commercially 
viable, because we think that that is what is needed to drive 
the recovering nuclear energy in the longer-term future, giving 
it a technology that can make electricity and make hydrogen in 
a cost-effective way.
    Mr. Ehlers. Now I have heard over and over that the biggest 
problem in the nuclear industry is that every new plant is an 
experiment and that what we need is a standardized product that 
people can put up with assurance that it is going to work and 
not do a lot of research on every new building. Are you 
envisioning that this would be--you say it is a pilot? Would 
you envision this would be a model that other people would 
replicate?
    Mr. Magwood. That is certainly--that is the plan. The plan 
is that we would achieve a design, achieve a plant that could 
be replicated, not just in the United States, but 
internationally, because one of the philosophies in the 
Generation IV International Forum is that for nuclear to be 
competitive in the future, the market for a particular nuclear 
plant has to be as large as possible. And if you simply make a 
few plants here, make a few plants there, you are never cost-
effective. You really have to be in the position of having an 
ongoing production to make it cost-effective, and we think that 
that is what this can do, and many of international partners 
seem to think this is very possible.
    Mr. Ehlers. And then you would really have to use the KISS 
principle, Keep It Simple, Stupid, so that it is easily 
replicated at a relatively low cost.
    The--another question. Are you also, in your labs, 
investigating the production of hydrogen using other high-
temperature means? Now let me explain the reason for that. It--
hydrogen is not that easy to transport. It might make more 
sense to produce a lot of electricity and transport the 
electricity and then, in metropolitan areas, use that 
electricity in a high-temperature facility to produce the 
hydrogen. Are you investigating these possibilities as well 
rather than just making the hydrogen at the nuclear facility?
    Mr. Magwood. We are really running a very, very broad 
program in the Department. The Secretary issued, I think it is 
almost two years ago, a hydrogen posture plan that basically 
states that all of the elements of the Department involved in 
energy, our office, the Fossil Energy Office, Energy 
Efficiency, and Science, are all looking at different ways of 
producing and transporting hydrogen. And we are not making a 
judgment as to whether nuclear is the best way or biological 
sources are the best way to make hydrogen or even, you know, 
coal-based technologies are the best way. We are going to 
basically continue down all of these research paths, and we 
think that ultimately it will become clearer as we go on which 
way is appropriate. In my office, we are looking principally--
we are looking at the broad range of technologies that can 
apply high temperatures, but we are focused on two right now. 
One is thermochemical, as you have mentioned, which is a very 
tricky technology at this point. We haven't solved all of 
those--all of the questions yet. But we are also looking at 
thermal-assisted electrolysis, which is probably something that 
could rely more on remote generation of electricity. But we are 
looking at those. But at this point, we are expecting that 
there would be a central generation of hydrogen, but we will 
see what the future holds.
    Mr. Ehlers. Well, my point of this is simply that the 
premise of constructing this may not be a good premise. This 
may be a very expensive way to go, if you are designing this to 
produce hydrogen when there are other better and cheaper ways 
of doing it. And so you are talking $1 billion to $11/2 billion 
on a project where you are not sure that that is the best way 
to proceed.
    Mr. Magwood. Well, that is why we are very focused on not 
simply having a hydrogen-producing facility but one that can do 
hydrogen or--and/or electricity, because this technology, 
because of the high temperatures, is also a very, very 
efficient way of making electricity. So then if it turns out 
that hydrogen is better done by using biological means or some 
other means, we still have the electricity. We are going to 
need electricity for a long, long time, and we think that this 
technology, even if we don't go forward with hydrogen, will be 
a very, very competitive way to make electricity, not just 
because of the efficiency of the technology, but also because 
of the smaller size of the reactors. We think that, in the 
long-term future, smaller systems, and these systems are 
probably about 250-megawatts electric from what we are looking 
at right now, provide for a better economic model for the 
industry. And we have heard this from many people in the 
utilities that being able to add smaller modules over time 
instead of one large plant that costs $2 billion would be a 
much more effective way to proceed. So we are looking at that 
as a possible future.
    Mr. Ehlers. So you are talking about a 250-megawatt plant 
for $1 billion to $11/2 billion?
    Mr. Magwood. Well, that is--when I talk about the $1 
billion to $11/2 billion, I am talking about the whole 
development costs, not just the construction.
    Mr. Ehlers. Yeah. Okay. Okay. And I would point out you 
said and/or. There is a huge difference. If you put the and in 
there, you are probably adding another $200 million if you are 
going to try to do both the gas--the hydrogen production and 
the electricity production.
    Mr. Magwood. Well, our hydrogen--we have a set--we have--
what we have done is we have a base program to develop the NGNP 
technology, but that doesn't include the hydrogen development. 
The hydrogen development is an entirely separate program called 
Nuclear Hydrogen Initiative. And if we are successful on both 
accounts, we will marry the two technologies somewhere down the 
road and link the NGNP with the nuclear hydrogen production 
system. And if nuclear hydrogen proves not to be successful, 
that could go away. We could simply focus on electricity 
production.
    Mr. Ehlers. All I would say is good luck. You have got an 
immense project here, and it is going to take an incredible 
amount of careful planning to get it done at a reasonable cost 
and a reasonably assured result.
    Let me, if I may, just in conclusion, join in saying that I 
think when the Carter Administration some years ago decided 
against reprocessing waste, that was a political decision. That 
was not a scientific decision. And unfortunately, we--the 
attitude still is that that was the correct decision. I don't 
think it was. I think we could handle the waste much more 
efficiently and much more safely if we reprocessed it. But 
unfortunately, the efforts of reprocessing have resulted in 
considerable environmental contamination because of wrong 
procedures, sloppy approaches, improper oversight, and that has 
also created a problem. And we are still trying to clean up 
from all of those activities. But I really think I agree with 
Dr. Bartlett on that. That really should be the way to go and 
separate out what we can use and then deal properly with the 
remainder, whether we transmute it into something that is safer 
or do something else. I think we can do a lot better than we 
are doing, especially when it takes 20 years to dig a hole in 
the ground.
    Chairman Biggert. Thank you, Dr. Ehlers.
    And before we bring this hearing to a close, I want to 
thank our experts, our panelists, for testifying before this 
subcommittee today. And if there is no objection, the record 
will remain open for additional statements from Members and for 
answers to any follow-up questions the Subcommittee may ask of 
the panelists. Without objection, so ordered.
    And the hearing is now adjourned. Thank you.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by William D. Magwood, IV, Director of the Office of Nuclear 
        Energy, Science, and Technology, The Department of Energy

Q1.  The Department has indicated that it will select a contractor for 
operations and maintenance of the Idaho National Laboratory (INTL) in 
early November 2004. The Nuclear Energy Research Advisory Committee 
(NERAC) subcommittee charged with recommending measures to establish 
the laboratory as a world class facility is not expected to finalize 
its report until October 2004. Given this timeline, how will the 
Department incorporate the recommendations of the NERAC subcommittee 
into the provisions of the INL contract?

A1. The 1NL contract is a 10-year, performance-based contract. 
Throughout the life of the contract, the Department will develop 
performance measures to keep the contract focused on the goal of 
establishing the laboratory as a world-class research center within 10 
years. The NERAC report will provide essential guidance to the 
Department as it develops the performance measures to achieve this 
goal.

Q2.  After its research mission is completed, will the Next Generation 
Nuclear Plant (NGNP) be dedicated to commercial electricity production? 
If so, how has the expectation of commercial operation of the NGNP 
affected the cost-sharing provisions of the project?

A2. DOE's goal for cost share over the life of the project is 50 
percent DOE funding and 50 percent industry contribution. As part of 
the project, the NGNP would be operated by its commercial owner(s) for 
as long as necessary to demonstrate the principles of its design, its 
operating reliability, and to prove the value of the technology to the 
marketplace. This demonstration period is thought to be five or more 
years. Once the project is complete, it is possible that the commercial 
owner(s) may elect to retain the plant and operate it for profit. We 
expect the agreement between DOE and the commercial owner(s) would 
contain an adjustment mechanism to take into account the additional 
value to the commercial owner(s) resulting from a decision to operate 
the plant for profit.

Q3.  What specific provisions in the operations and maintenance (O&M) 
contract for the Idaho National Laboratory will require research 
collaborations with other national laboratories involved in nuclear 
energy R&D? To what extent will the selection of the O&M contractor be 
based on the inclusion of a well formulated plan for collaborations 
with nuclear energy R&D resources at other national laboratories?

A3. The Department believes that to provide effective leadership for 
the U.S. nuclear energy technology research endeavor, the INL must not 
only conduct successful research in Idaho, but must effectively 
coordinate and collaborate with other DOE national laboratories. While 
we plan to establish the INL as the U.S. ``command center'' for nuclear 
energy research, it is critical that we take full advantage of the 
important nuclear energy technology capabilities and expertise at other 
laboratories. The request for proposal (RFP) reflects this. As a 
principle example, the RFP requires all bidders to provide a clear plan 
for collaboration with nuclear energy R&D resources at other national 
laboratories. This plan will be an important element in the evaluation 
and selection process.
    Section M of the RFP includes the criteria for evaluation of 
proposals and the selection of the new contractor. The Technical and 
Business Management Plan (M.4 (a)--Criterion 4 of the Capabilities and 
Approach Proposal) states that the Government will evaluate the 
offeror's approach and innovation in creating a multi-program 
laboratory with world class capabilities through international, 
industrial and academic collaboration.
    Additionally, the mission performance requirements in Criterion 
4(c) of Section M includes references to collaborations with other 
national laboratories, programs within the DOE, other federal agencies, 
universities, international partners and the private sector.

</pre></body></html>
